<html>
<title> - H.R. 1616 and H.R. 1964</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
                        H.R. 1616 and H.R. 1964

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             June 17, 2003

                               __________

                           Serial No. 108-26

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

87-737              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
     DONNA M. CHRISTENSEN, Virgin Islands, Ranking Democrat Member

Elton Gallegly, California           Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Ron Kind, Wisconsin
Wayne T. Gilchrest, Maryland         Tom Udall, New Mexico
Barbara Cubin, Wyoming               Mark Udall, Colorado
Walter B. Jones, Jr., North          Anibal Acevedo-Vila, Puerto Rico
    Carolina                         Raul M. Grijalva, Arizona
Chris Cannon, Utah                   Dennis A. Cardoza, California
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Nick J. Rahall II, West Virginia, 
Mark E. Souder, Indiana                  ex officio
Rob Bishop, Utah
Richard W. Pombo, California, ex 
    officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 17, 2003....................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     2
    Frelinghuysen, Hon. Rodney, a Representative in Congress from 
      the State of New Jersey....................................     5
        Prepared statement on H.R. 1964..........................     6
    Garrett, Hon. Scott, a Representative in Congress from the 
      State of New Jersey........................................     7
        Prepared statement on H.R. 1964..........................     9
    Kelly, Hon. Sue W., a Representative in Congress from the 
      State of New York..........................................    10
        Prepared statement on H.R. 1964..........................    11
    Lewis, Hon. John, a Representative in Congress from the State 
      of Georgia.................................................     3
        Prepared statement on H.R. 1616..........................     4
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement on H.R. 1616 and H.R. 1964............     2
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................    12
        Prepared statement on H.R. 1964..........................    12

Statement of Witnesses:
    Jones, A. Durand, Deputy Director, National Park Service, 
      U.S. Department of the Interior, Washington, D.C...........    25
        Prepared statement on H.R. 1616..........................    26
        Prepared statement on H.R. 1964..........................    27
    Nordstrom, Hon. Margaret, Freeholder, Morris County Board of 
      Freeholders, Long Valley, New Jersey.......................    29
        Prepared statement on H.R. 1964..........................    31
    Shaw, Stephen H., Immediate Past President, New Jersey 
      Builders Association, Mountain Lake, New Jersey............    32
        Prepared statement on H.R. 1964..........................    33
    Tenny, David, Deputy Under Secretary, Natural Resources and 
      Environment, U.S. Department of Agriculture, Washington, 
      D.C........................................................    13
        Prepared statement on H.R. 1964..........................    14


LEGISLATIVE HEARING ON H.R. 1616, TO AUTHORIZE THE EXCHANGE OF CERTAIN 
LANDS WITHIN THE MARTIN LUTHER KING, JUNIOR, NATIONAL HISTORIC SITE FOR 
 LANDS OWNED BY THE CITY OF ATLANTA, GEORGIA, AND FOR OTHER PURPOSES; 
   AND H.R. 1964, TO ESTABLISH THE HIGHLANDS STEWARDSHIP AREA IN THE 
STATES OF CONNECTICUT, NEW JERSEY, NEW YORK, AND PENNSYLVANIA, AND FOR 
                            OTHER PURPOSES.

                              ----------                              


                         Tuesday, June 17, 2003

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:02 p.m., in 
room 1334, Longworth House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.
    Present: Representatives Radanovich and Christensen.
    Also Present on Dais: Representatives Frelinghuysen and 
Saxton.

   STATEMENT OF HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good afternoon. The Subcommittee on 
National Parks, Recreation and Public Lands, Committee on 
Resources, will come to order for a hearing on H.R. 1616 and 
H.R. 1964. I want to welcome everybody to this Subcommittee 
hearing and let you know that our first bill, H.R. 1616, which 
is introduced by Congressman Lewis of Georgia, will authorize 
the exchange of certain lands within the Martin Luther King, 
Junior, National Historic Site for lands owned by the City of 
Atlanta, Georgia.
    Our other bill, H.R. 1964, introduced by Congressman 
Frelinghuysen of New Jersey, would establish the Highlands 
Stewardship Area in the State of Connecticut, New Jersey, New 
Jersey and Pennsylvania.
    Before running, before turning the time over to Mrs. 
Christensen, I would ask unanimous consent that Mr. Lewis, Mr. 
Frelinghuysen, Mr. Garrett and Ms. Kelly would be permitted to 
sit on the dais following the statements.
    Without any objection, so ordered.
    And I now turn to my Ranking Member, Mrs. Donna 
Christensen, from the Virgin Islands, for your opening 
statement.
    [The prepared statement of Mr. Radanovich follows:]

Statement of The Honorable George Radanovich, Chairman, Subcommittee on 
 National Parks, Recreation, and Public Lands,, on H.R. 1616 and H.R. 
                                  1964

    Good afternoon. The hearing will come to order.
    This afternoon, the Subcommittee on National Parks, Recreation, and 
Public Lands will receive testimony on two bills--H.R. 1616 and H.R. 
1964.
    Our first bill, H.R. 1616, introduced by Congressman Lewis of 
Georgia, authorize the exchange of certain lands within the Martin 
Luther King, Junior, National Historic Site for lands owned by the City 
of Atlanta, Georgia.
    Our other bill, H.R. 1964, introduced by Congressman Frelinghuysen 
of New Jersey, would establish the Highlands Stewardship Area in the 
States of Connecticut, New Jersey, New York, and Pennsylvania.
    Before turning the time over to Mrs. Christensen, I would ask 
unanimous consent that Mr. Lewis, Mr. Frelinghuysen, Mr. Garrett and 
Ms. Kelly be permitted to sit on the dais following their statements. 
Without objection, so ordered.
    I now turn to the Ranking Member, Mrs. Christensen for any opening 
statement she may have.
                                 ______
                                 

  STATEMENT OF HON. DONNA CHRISTENSEN, A DELEGATE TO CONGRESS 
                    FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman.
    I would like to welcome our colleagues and the other 
panelists here today, particularly to welcome Congressman 
Lewis, who I understand served on this Subcommittee when he 
first came to Congress. So it is nice to welcome you back, 
John.
    Today, we are meeting to receive testimony on two unrelated 
bills. The first bill, H.R. 1616, introduced by my good friend 
and colleague, Representative John Lewis, authorizes an 
exchange of land between the National Park Service and the City 
of Atlanta at the Martin Luther King, Junior, National Historic 
site.
    It is my understanding that both the National Park Service 
and the City of Atlanta support this exchange and that the 
exchange would benefit both the National Historic Site and the 
city. This looks to be a win-win situation, and I am especially 
interested in learning the details, since I, too, am working on 
a proposal to address the needs of a local community and 
national park unit in my district that involves the Virgin 
Islands National Park and the local Government on the Island of 
St. John.
    Our second bill, H.R. 1964, is an ambitious proposal to 
provide for a new designation of more than two million acres, 
covering parts of four States as the Highlands Stewardship 
area. Over the years, a number of studies, plans and projects 
have been developed to further stewardship goals and 
conservation strategies for the Highlands region.
    In the highly populated Northeastern United States, there 
seems to be a lot of interest in finding ways to conserve the 
natural agricultural and cultural resources of the region for 
both the residents of and visitors to the Highland area.
    Mr. Chairman, I would, again, like to welcome our 
colleagues and look forward to hearing more about the two 
measures before us today.
    Mr. Radanovich. Thank you very much, Donna.
    We will go ahead and ask the first of three panels to come 
forward. We are privileged and honored to have so many of our 
colleagues here with us today to speak on these two bills; the 
Honorable John Lewis from the 5th District of Georgia. John, 
welcome to the Subcommittee; the Honorable Rodney 
Frelinghuysen, representing the 11th District of New Jersey. 
Rod, welcome; and the Honorable Scott Garrett, representing the 
5th District of New Jersey. Scott, welcome to the Subcommittee; 
and also Sue Kelly if she is--from New York--if she does come.
    We are going to go ahead and start with each testimony 5 
minutes with each, and after that, if there are any questions 
we may ask, and then the gentleman are welcome to join us on 
the dais for the rest of the hearing and the consideration of 
the following two panels.
    Mr. Lewis, welcome, if you would like to begin your 
testimony. Welcome back, and please begin.

STATEMENT OF HON. JOHN LEWIS, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF GEORGIA

    Mr. Lewis of Georgia. Thank you very much, Mr. Chairman and 
Madam Ranking Member. Thank you very, very much for having me 
here to talk about 1616, H.R. 1616.
    Thank you for allowing me the opportunity to come before 
you today to discuss H.R. 1616, the Martin Luther King, Junior, 
National Historic Site Land Exchange Act. H.R. 1616 would amend 
Public Law 96-428, the Act that established a Martin Luther 
King, Junior, National Historic Site. This bill authorizes the 
exchange of land owned by the National Park Service, a land of 
equal or greater value, from the City of Atlanta.
    H.R. 1616 is necessary in order to facilitate an agreement 
to exchange land between the National Park Service and the City 
of Atlanta. This exchange will allow the Martin Luther King, 
Junior, National Historic Site to create an emergency access to 
and from the site.
    The City of Atlanta has expressed interest in acquiring 
property from the National Park Service in order to encourage 
commercial development in the community. Likewise, the National 
Park Service has expressed interest in acquiring land owned by 
the City of Atlanta that surrounds the Martin Luther King, 
Junior, National Historic visitor center.
    This legislation is so important because the Martin Luther 
King, Junior, National Historic Site visitor center and museum 
is landlocked and has no emergency access, making it virtually 
impossible for firefighting equipment to reach the facility. In 
fact, if there was a fire at the visitor center, the Atlanta 
Fire Department would have to walk at least 150 to 200 yards in 
order to reach the Center. Luckily, we have not been faced with 
such an outcome. However, we must be prepared for the 
heightened security concerns at our Nation's monuments and 
parks. Emergency access is very critical.
    This bill is a win-win for all parties. The acquisition of 
city-owned property would enable the National Park Service to 
establish easy street access to the Martin Luther King, Junior, 
National Historic Site visitor center and museum and would 
benefit the City of Atlanta by changing a piece of property 
that the city could develop into a commercial center.
    Mr. Chairman, Atlanta is the heart of the South. It is the 
gateway to the new South and home to a progressive residential 
and viable business community.
    The Martin Luther King, Junior, National Historic Site is 
adjacent to one of Atlanta's most preserved communities. It is 
a gathering place where people from all over the world travel 
to learn and study our Nation's history, study the history of 
the civil rights movement, the history of Martin Luther King, 
Junior.
    Furthermore, the Martin Luther King, Junior, National 
Historic Site is central to the growth and prosperity of the 
surrounding community. Currently, both the National Park 
Service and the City of Atlanta support H.R. 1616. Community 
residents strongly support this legislation as well. We must do 
all that we can to preserve this important part of our history.
    H.R. 1616 plays a small, but important, role in achieving 
this responsibility. Again, thank you for your consideration, 
and I ask for your support of this piece of legislation, Mr. 
Chairman.
    Thank you very much.
    Mr. Radanovich. Thank you very much, Congressman Lewis.
    [The prepared statement of Mr. Lewis follows:]

  Statement of The Honorable John Lewis, a Representative in Congress 
                from the State of Georgia, on H.R. 1616

    Good afternoon Mr. Chairman and members of the Subcommittee. Thank 
you for allowing me the opportunity to come before you today to discuss 
H.R. 1616, the Martin Luther King, Jr. National Historic Site Land 
Exchange Act.
    H.R. 1616 would amend Public-Law 96-428, the act that established 
the Martin Luther King, Jr. National Historic Site. This bill 
authorizes the exchange of land owned by the National Park Service for 
land of equal or greater value from the City of Atlanta.
    H.R. 1616 is necessary in order to facilitate an agreement to 
exchange land between the National Park Service and the City of 
Atlanta. This exchange will allow the Martin Luther King, Jr. National 
Historic Site to create an emergency access to and from the site.
    The City of Atlanta has expressed interest in acquiring property 
from the National Park Service in order to encourage commercial 
development in the community. Likewise, the National Park Service has 
expressed interest in acquiring land owned by the City of Atlanta that 
surrounds the Martin Luther King National Historic Visitor Center.
    This legislation is so important because The Martin Luther King, 
Jr. National Historic Site Visitor Center and Museum is land locked and 
has no emergency access, making it virtually impossible for 
firefighting equipment to reach the facility.
    In fact, if there were a fire at the Visitor Center, The Atlanta 
Fire Department would have to walk at least 150 to 200 yards in order 
to reach the Center.
    Luckily, we have not been faced with such an outcome. However, we 
must be prepared. Furthermore, with heightened security concerns at our 
Nation's monuments and parks, emergency access is critical.
    This bill is a win-win for all parties. The acquisition of city-
owned property would enable the National Park Service to establish easy 
street access to the Martin Luther King, Jr. National Historic Site 
Visitor Center and Museum, and would benefit the City of Atlanta by 
exchanging a piece of property that the City could develop into a 
thriving commercial center.
    Mr. Chairman, Atlanta is the heart of the South and home to a 
progressive residential and business community. The Martin Luther King, 
Jr. National Historic Site is adjacent to one of Atlanta's most 
preserved districts. It is a gathering place where people from all over 
the world travel to and learn from our Nation's history. Furthermore, 
The Martin Luther King, Jr. National Historic Site is central to the 
growth and prosperity of the surrounding community.
    Currently, both the National Park Service and the City of Atlanta 
support H.R. 1616. Community residents strongly support this 
legislation as well.
    We must do all that we can to preserve this important tale of 
history. H.R. 1616 plays a small but an important role in achieving 
this responsibility.
    Again, thank you for your consideration, and I ask for your support 
of this legislation.
                                 ______
                                 
    Mr. Radanovich. Next, is Mr. Rodney Frelinghuysen, here to 
discuss H.R. 1964. Rod, welcome to the Subcommittee.

  STATEMENT OF HON. RODNEY FRELINGHUYSEN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Frelinghuysen. Thank you, Mr. Chairman. Good afternoon, 
Mr. Chairman, Ranking Member, and also Mr. Saxton from New 
Jersey, who is on the dais. Thank you for allowing me the 
opportunity to speak on H.R. 1964, the Highlands Stewardship 
Act.
    President Bush's Fiscal Year 2004 Forest Legacy Budget 
designates the Highlands as one of nine national priority areas 
threatened by development. There is good reason for this 
designation.
    The time to act is now. The Forest Service study found that 
each year more than 5,000 acres of the New York/New Jersey 
Highlands is being developed. From 1990 to 2000, the population 
within the Highlands increased by 11 percent. When you consider 
that the New Jersey and New York are among the most densely 
populated States in the union, this is a significant increase.
    While it is not my intention to drop a laundry list of 
numbers highlighting the Highlands' importance to the 
Northeast, several examples are definitely noteworthy. 
According to a U.S. Forest Service study on the area, the 
Highlands watershed lands contain reservoirs and aquifers that 
provide and protect high-quality drinking water for over 15 
million Americans. In addition, over 25 million Americans live 
in an hour's drive of these watersheds, wildlife habitat, and 
recreational opportunities that lie in the roughly 2 million 
acres that encompass the Highlands.
    More important than these numbers, however, is the fact 
that this bill fits into the current administration's vision 
for land conservation. In a Nation where the Government owns 
one of every five acres of land and is responsible for 
maintaining one out of every four acres, we all need to be 
aware that operations and maintenance costs for the Federal 
Government have increased dramatically, endangering the very 
assets we all seek to preserve and protect.
    Please be assured that this proposal stresses local 
responsibility in public-private partnership. In fact, this 
bill does not call for any Federal ownership, nor does it call 
for any future Federal maintenance and upkeep. Instead, this 
bill would require the State and local governments to work with 
willing sellers. Similar to the Federal Forest Legacy Program, 
the Highlands Stewardship Act only provides Federal financial 
assistance for willing sellers. In short, this bill is seeking 
a helping hand from the Federal Government, rather than 
overregulating, strong-armed mandate.
    Because local communities welcome this Federal partnership, 
and without Federal oversight, 24 towns and four New Jersey 
counties have passed resolutions in support of conserving the 
Highlands resources. Notably, not one community has expressed 
opposition.
    At the Federal level, along with a large number of our 
colleagues from New York, and I am here with Congressman 
Garrett and Congresswoman Kelly, the entire New Jersey 
delegation has co-sponsored this bill. This truly is a 
bipartisan effort. This spirit exists because the bill provides 
deference to local authority, while recognizing the need for 
Federal assistance to preserve nationally significant natural 
resources in our local forest areas, just as Congress did with 
a similar collaborative State-Federal partnership 7 years ago 
with Sterling Forest.
    In short, this bill is important to New Jersey, New York, 
Connecticut and Pennsylvania. By not providing Federal 
ownership or future Federal maintenance responsibilities, and 
by acquiring land from only willing sellers, H.R. 1964 conforms 
to the Bush administration's best practices and vision for land 
acquisition. As such, I see this bill as a victory for the 
people of the Northeast, the Congress and the President, and I 
ask your support of the bill.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Frelinghuysen follows:]

Statement of The Honorable Rodney P. Frelinghuysen, a Representative in 
          Congress from the State of New Jersey, on H.R. 1964

    Good Morning. Mr. Chairman, members of the Subcommittee, thank you 
for allowing me this opportunity to testify in support of my 
legislation, H.R. 1964, the Highlands Stewardship Act.
    President Bush's Fiscal Year 2004 Forest Legacy Budget designates 
the Highlands as one of nine national priority areas threatened by 
development. There is good reason for this designation.
    The time to act is now! The Forest Service Study found that each 
year more than 5000 acres of the New York/New Jersey Highlands are 
being developed. From 1990 to 2000, the population within the Highlands 
increased by 11 percent. When you consider that New Jersey is already 
the most densely populated state in the union, this is a significant 
increase.
    While it is not my intention to drop a laundry list of numbers 
highlighting the Highlands importance to the northeast, several 
examples are definitely noteworthy. According to a U.S. Forest Service 
Study on the area, the Highlands watershed lands contain reservoirs and 
aquifers that provide and protect high quality drinking water for over 
15 million Americans. In addition, over 25 million Americans live with 
in an hour's drive of these invaluable watersheds, wildlife habitat, 
and recreation opportunities that lie in the roughly 2 million acres 
that encompass the Highlands.
    More important than these numbers, however, is the fact that this 
bill fits into the current administration's vision for land 
conservation. In a nation where the government owns 1 in every five 
acres of land and is responsible for maintaining 1 out of every 4 
acres, we all need to be aware that operations and maintenance costs to 
the Federal Government have increased dramatically endangering the very 
assets we all seek to preserve and protect.
    Please be assured this proposal stresses local responsibility and 
public/private partnerships. In fact, this bill does not call for any 
Federal ownership, nor does it call for any future Federal maintenance 
and upkeep.
    Instead, this bill would require state and local governments to 
work with willing sellers. Similar to the Federal Forest Legacy 
Program, the Highlands Stewardship Act only provides Federal financial 
assistance for willing sellers. In short, this bill is seeking a 
helping hand from the Federal Government rather than an over-
regulating, strong armed mandate.
    Because local communities welcome this Federal partnership and 
without Federal oversight, 24 towns and 4 New Jersey Counties have 
passed resolutions in support of the conserving the Highlands' 
resources. Notably, not one community has expressed opposition.
    At the Federal level, along with a large number of our colleagues 
from New York, Connecticut, and Pennsylvania, the entire New Jersey 
delegation has co-sponsored this bill. Thus, this truly is a bipartisan 
effort. The bipartisan spirit exists because the bill provides 
deference to local authority, while recognizing the need for Federal 
assistance to preserve nationally significant natural resources in our 
local forest areas, just as Congress did with a similar collaborative 
state/Federal partnership seven years ago with Sterling Forest.
    In short, this bill is important to New Jersey, New York, 
Connecticut, and Pennsylvania. By not providing Federal ownership or 
future Federal maintenance responsibilities, and by acquiring land from 
only willing sellers, H.R. 1964 conforms to the Bush Administration's 
best practices and vision for land acquisition. As such, I see this 
bill as a victory for the people of the Northeast, the Congress, and 
the President.
    That concludes my testimony. Once again, I thank you all for the 
opportunity to be heard and I would be happy to answer any questions.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Frelinghuysen.
    The Honorable Scott Garrett, welcome to the Subcommittee. 
If you would like to begin your testimony, that would be great. 
I understand it is on the same bill, H.R. 1964.

 STATEMENT OF HON. SCOTT GARRETT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Garrett. That is correct, and thank you, Mr. Chairman, 
and Ranking Member, as well, for the opportunity to present my 
testimony to you today and also thanks to my colleague to the 
right, who I have served with in the State legislature over the 
years and as a friend, for his efforts to this matter and his 
devotion to these significant environmental issues.
    Mr. Chairman, I have lived in the Highlands region my 
entire life, and now my congressional district lies in the 
heart of this very vast and diverse national heritage. More 
than 12 years ago, I ran for public office for the State 
legislature because I believe in a cleaner environment and a 
healthier America. I believe that we really weren't doing 
enough on the State and Federal level, and I wanted to become 
involved.
    Upon being sworn in as a member of the New Jersey Assembly, 
I continued my efforts for preserving open space, expanding our 
recreational land and protecting our natural resources. In my 
time as a State legislator, I sponsored several pieces of 
legislation that were eventually signed into law that allocated 
millions of dollars for acquisition and protection of 
recreational land, open space, farmland preservation and also 
park developments as well.
    Now, we have made several important strides to protect and 
restore our State's resources. Of course, there is still much 
more we can do.
    If you look at these pictures and if you looked at the 
area, and if you have ever been there, you know there is an 
opportunity to preserve an open space of greenways with endless 
trees and waterways. Imagine a landscape of recreational lands 
and fields for our children to play and enjoy.
    Our commitment to conserve this open space and a cleaner 
America really runs deep, and it runs deep in New Jersey, and 
that is because New Jersey is the most congested State in the 
country. More of this prized open space is being used up every 
single day. A recent report from the U.S. Forest Service found 
that certain portions of this area in the Highlands are losing 
over 5,000 acres of open space every year. H.R. 1964 will go a 
long way to addressing this serious concern.
    It would help to preserve some of that open space that 
remains there and help protect cherished natural resources as 
well. It would help to provide the Highlands region with a 
national designation and perhaps financial support to protect 
these lands.
    Now, the Highlands lie in the middle of one of the most 
populated areas in the country. And as my colleagues just 
stated, over one-twelfth of the U.S. population lives within a 
driving range, an hour; 14 million visitors come there every 
year to provide significant economic help to the area, and we 
rely on it for water as well.
    In a recent update of the original Forest Service study, it 
states that the Highland is a ``landscape of national 
significance.'' The update also draws attention to some recent 
trends that I think we should pay attention to. Over 25,000 
acres of land were developed in the Highlands from 1995 to 
2002. Continued development trends would reduce the quality of 
the water. Nearly 300,000 acres of critical watershed areas are 
still unprotected. All of these, and more, are of concern to 
us.
    Over the last several years, there has been an increase in 
funding and support on both a Federal level, the State level 
and local governments to preserve this area. Now, from the 
Federal Government alone, between 2001 and 2003, more than $10 
million has been distributed to help preserve some of these 
critical tracts. It is vital that this support continue.
    Now, with that said, there is an ever-increasing demand 
from all regions for these limited dollars. So it is essential 
that all Federal dollars allocated to the region be used to 
help protect those areas that have the highest conservation 
value and are at the greatest risk of being developed. 
Preservation of the Highlands is not a partisan issue, and so 
we must work hand-in-hand to meet these goals. But let us make 
this one point clear. By working to protect open space, we must 
also ensure that an adequate opportunity for economic 
development continues as well. And there are signs that the 
economy is beginning to grow again. It is important that we 
find that right balance between protecting the cherished 
resources and promoting strong economy as well.
    Now, during my tenure in the legislature, I found that 
people at the local level, in this case, those people who live 
in and around the land that we are working to protect, they 
really are the ones that are best-qualified to determine what 
works in their communities. So local involvement is essential 
to the success of protecting these critical areas.
    Now, when discussing local control, it is also important to 
remember the potential problems associated with increasing the 
already overburdensome Federal bureaucracy. It would be 
extremely disappointing to see money get wasted on paperwork 
and red tape that could have been used better for more critical 
habitat and environmentally sensitive tracts of land 
acquisition.
    And so in closing, Mr. Chairman and Ranking Member, I would 
like to thank you again for the chance to be with you and 
present this testimony, and to work together to protect open 
space. Throughout my entire life, I have had the opportunity, 
along with my family, to enjoy the natural resources of the 
Highlands and what they have to offer. My hope is that we can 
work together so that future families can, also.
    Thank you.
    [The prepared statement of Mr. Garrett follows:]

Statement of The Honorable Scott Garrett, a Representative in Congress 
               from the State of New Jersey, on H.R. 1964

    Thank you Chairman Radanovich. I would like to thank you, Ranking 
Member Christian-Christensen, and Chairman Pombo for holding this 
hearing today to discuss the Highlands and for providing me an 
opportunity to come before this Subcommittee to offer my testimony. I 
would also like to thank my good friend, Congressman Frelinghuysen, for 
all of his hard work on this legislation and for having such a devotion 
to protecting this significant environmental treasure.
    Mr. Chairman, I have lived in the Highlands region my entire life 
and my Congressional District lies in the heart of this vast and 
diverse natural heritage. More than 12 years ago, I ran for public 
office because I believed in a cleaner and healthier America. I 
believed we weren't doing enough to preserve our precious farmland and 
vital open space.
    Upon being sworn in as a member of the New Jersey General Assembly, 
I continued my cause for preserving our open space, expanding our 
recreational land and protecting our natural resources. In my time as 
an Assemblyman, I sponsored and had several pieces of legislation 
signed into law that allocated millions of dollars for acquisition and 
protection of recreation land, open space, farmland preservation and 
park development projects.
    We've made several important strides to protect and restore our 
state's resources and there is still much more work to do. Imagine a 
vast, open space of greenways with endless trees and waterways. And 
imagine a landscape of recreational lands and fields for our children 
to play and enjoy.
    Our commitment to conservation of open spaces, and a cleaner and 
healthier America, runs deep. But, Mr. Chairman, I believe it doesn't 
run deep enough. New Jersey is the most congested state in the country 
and more of this prized open space is being used up everyday. The 
recent report from the U.S. Forest Service found that certain portions 
of the Highlands in New Jersey are losing over 5,000 acres of open 
space per year.
    H.R. 1964, the Highlands Stewardship Act, would go a long way 
towards addressing this serious concern. It would help preserve the 
remaining open space in New Jersey and help protect cherished natural 
resources that provide extraordinary environmental, recreational, and 
historical assets. This bill would provide the Highlands region with a 
national designation and an increase in Federal financial support to 
protect these lands.
    The Highlands lie in the middle of one of the most populated areas 
in the country. Over one-twelfth of the U.S. population lives within an 
hour driving distance. The 14 million visitors to the Highlands every 
year provide a significant economic impact to the area while 15 million 
people rely on the Highlands for clean drinking water.
    In the recent update of the original Forest Service study, it 
states that the Highlands is a ``landscape of national significance.'' 
The update also draws attention to some recent trends and makes several 
predictions about what could happen to the land if it goes unprotected. 
The report states:
    <bullet> Over 25,000 acres of land were developed in the Highlands 
between 1995 and 2000;
    <bullet> Continuing development trends will reduce the exceptional 
value water quality watersheds by 75 percent;
    <bullet> Nearly 300,000 acres of critical watershed areas are 
unprotected, and
    <bullet> The loss of wetland and forestland quadrupled between 
1984 and 1995 at the rate of 3,400 acres per year.
    Mr. Chairman, these trends are very worrisome and something must be 
done to address these concerns.
    Over the last several years, there has been an increase in 
financial support from Federal, state, and local governments to 
preserve the Highlands. From the Federal Government alone, between 
Fiscal Year 2001'' to Fiscal Year 2003'', more than $10 million has 
been distributed to help preserve critical tracks of land. It is vital 
that this financial support from the Federal Government continue to 
grow.
    With that said, there is an ever-increasing demand from all regions 
of the country for the limited Federal resources available to protect 
undeveloped lands like the Highlands. So it is essential that all 
Federal dollars allocated to the region be used to help protect those 
areas that have the highest conservation value and are at the greatest 
risk of being developed.
    The preservation of the Highlands is neither a Republican nor 
Democratic issue. Rather, it is a national prerogative and a local 
responsibility. We must work hand-in-hand with the local communities to 
determine which tracks of land have the highest priority and use the 
limited resources available to ensure they are protected.
    But, while working to protect open space, we must also ensure there 
is adequate opportunity for further economic development. As there are 
signs that the economy is beginning to improve, it is important that we 
find a balance between protecting our cherished natural resources and 
promoting a strong economy.
    During my 12-year tenure in the New Jersey State Assembly, I found 
the people at the local level, in this case those who live in and 
around this land we are working to protect, are best qualified to 
determine what works in their communities. Local involvement is 
essential to the success of protecting these critical, at risk areas 
and we must ensure that this local participation is a top priority as 
we move forward.
    When discussing local control, it is also important to remember the 
potential problems associated with increasing the already over-
burdensome Federal bureaucracy. It would be extremely disappointing to 
see money get wasted on paperwork and red tape that could have been 
used to purchase more critical habitat and environmentally sensitive 
tracks of land.
    In closing Mr. Chairman, I would like to again thank you and 
Chairman Pombo for holding this hearing today and I would reiterate the 
importance of protecting open space in the Highlands.
    Throughout my entire my life, I have had the opportunity to take 
advantage of all of the natural resources the Highlands has to offer. 
My family and I have enjoyed the resources the Highlands provides, and 
I want to ensure that many other families have the same opportunities 
for years to come.
    The critical lands in the Highlands must be protected and it is our 
job to work with the state and local governments to see that they are.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Garrett.
    Sue Kelly, welcome to the Subcommittee. As you know, we 
have got I think two votes coming up here shortly--is it three 
votes? And if we could hear your testimony, then I think what 
we will do is break, and then everybody here is welcome to join 
us on the dais when the panels gather, the second and third 
panel, to discuss your bill. So you might want to be here to 
help ask questions and such.
    So, Sue, welcome to the Committee, and if you would like to 
begin, go ahead.

STATEMENT OF HON. SUE KELLY, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF NEW YORK

    Mrs. Kelly. Thank you Mr. Chairman. I will be very brief.
    I appreciate the opportunity to testify here in support of 
H.R. 1964, the Highlands Stewardship Act. As a co-sponsor of 
the bill, I join my colleagues here today from New Jersey in 
urging the passage of this really important piece of 
legislation. I represent much of the New York portion of the 
Highlands on both sides of the Hudson River, and I can attest 
to vital importance of the Highlands Forests, to the millions 
of residents of New York Metropolitan Area, and to the 
tremendous pressure this resource is facing from suburban 
sprawl.
    The Highlands supply and protect water supply for over 15 
million people, and the region hosts more than 14 million 
recreation visitors annually. That is more than Yellowstone 
National Park.
    The U.S. Forest Service documented the national 
significance of the Highlands in their recent study of the 
region and the threats to those critical water and recreational 
resources from the loss of over 5,000 acres of open space 
annually in these highlands. This New York-New Jersey 
Highlands.
    Only 20 percent of this region is publicly or privately 
preserved, and the U.S. Forest Service has identified 300,000 
acres of high-value water resource lands that further need 
preservation and protection. Despite the significant investment 
that is being made by State, local and private individuals to 
protect these lands, the future of the region and this vital 
water supply will be in jeopardy unless the Federal Government 
becomes a partner in this effort.
    The Highlands Stewardship Act would do just that by 
authorizing the Federal Government to assist the Highlands 
States in purchasing priority lands, and I want to again stress 
from willing sellers only, that would be then owned and managed 
by the States and not by the Federal Government. Technical and 
financial assistance would also be provided to private 
landowners and local communities to help them remain good 
stewards of these lands and resources.
    The bill will grant no new authority to any level of 
Government to interfere with local control over land use. This 
legislation simply enables us to preserve this land. The 
legislation is broad and bipartisan in its outlook, and from 
our regions, congressional delegation, from local governments 
and throughout the region, it is fully bipartisan.
    Thank you so much for the opportunity to testify in support 
of H.R. 1964, and I really urge your support for this very 
important legislation. I also want to issue an invitation to 
anyone on this Committee who would like to come and see the 
Highlands for themselves. You are welcome. Just call my office, 
and we will take you there.
    Thank you.
    Mr. Radanovich. Thank you very much, Ms. Kelly.
    [The prepared statement of Ms. Kelly follows:]

 Statement of The Honorable Sue W. Kelly, a Representative in Congress 
                from the State of New York, on H.R. 1964

    I want to thank you Mr. Chairman, for the opportunity to testify in 
support of H.R. 1964, the Highlands Stewardship Act. As a cosponsor of 
this bill, I join my colleagues here today from New Jersey in urging 
passage of this important legislation.
    I represent much of the New York portion of the Highlands, on both 
sides of the Hudson River, and can attest to the vital importance of 
Highlands' forests to the millions of residents of the New York 
metropolitan area, and to the tremendous pressure this resource is 
facing from suburban sprawl.
    The Highlands supply and protect the water supply for over 15 
million people and the region hosts more than 14 million recreational 
visitors annually, more than Yellowstone National Park. The U.S. Forest 
Service documented the ``national significance'' of the Highlands in 
their recent study of the region and the threats to these critical 
water and recreational resources from the loss of over 5,000 acres of 
open space annually in the NY-NJ Highlands alone.
    Only 20% of this region is publicly or privately conserved, and the 
U.S. Forest Service has identified 300,000 acres of high-value water 
resource lands that need further protection. Despite the significant 
investment that is being made by state and local governments to protect 
these lands, the future of the region and this vital water supply will 
be in jeopardy unless the Federal Government becomes a partner in this 
effort.
    The Highlands Stewardship Act would do just that by authorizing the 
Federal Government to assist the Highlands states in purchasing 
priority lands--from willing-sellers only--that would be owned and 
managed by the states, not the Federal Government. Technical and 
financial assistance would also be provided to private landowners and 
local communities to help them remain good stewards of these lands and 
resources.
    The bill would grant no new authority to any level of government to 
interfere with local control over land use decisions.
    This legislation has broad and bipartisan support from our region's 
Congressional Delegation, from local governments throughout the region.
    Thank you again for the opportunity to testify in support of H.R. 
1964. Again I urge your support for this important legislation.
                                 ______
                                 
    Mr. Radanovich. The Chair recognizes Mr. Saxton from New 
Jersey.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. Mr. Chairman, as a cosponsor of H.R. 1964, and 
a strong supporter, I thank you for inviting me to sit on the 
panel this afternoon, and I have a statement which I ask 
unanimous consent be placed in the record at this point.
    Mr. Radanovich. There being no objection, so ordered.
    [The prepared statement of Mr. Saxton follows:]

  Statement of The Honorable Jim Saxton, a Representative in Congress 
               from the State of New Jersey, on H.R. 1964

    Good afternoon Mr. Chairman and members of the Subcommittee, I 
appreciate the opportunity to join you today to discuss an important 
piece of legislation, The Highlands Stewardship Act. My colleague, Mr. 
Frelinghuysen, also of New Jersey, has introduced this important piece 
of conservation legislation. Thank you to the witnesses who have taken 
time out of their schedules to be here with us today, and I look 
forward to hearing your testimony.
    I have long been an advocate for, and worked hard to preserve open 
space and prevent the encroachment on and development of significant 
tracts of land in both my district and throughout the state of New 
Jersey.
    I am proud of the fact that New Jersey has been a leader on the 
issue of open space, recognizing the importance of not developing every 
acre of land possible. We need areas of undeveloped land, for a wide 
range of reasons, from habitat protection to simply providing areas for 
people to recreate and enjoy the outdoors.
    In Burlington County, which is in my Congressional district for 
example, there are over 162,000 acres of protected land. There is 4,000 
acres of Federally protected land, which is primarily in the New Jersey 
Pine Barrens; 130,000 acres of State-held acres, of which 120,000 is 
also located in the Pinelands; the Municipality has 8,000 acres and the 
County 1,500 acres; 4,000 acres are held by Non-Profit organizations 
and there are over 15,000 acres acquired as Farmland Preservation 
areas. This is an impressive number of acres and demonstrates New 
Jersey's ongoing commitment to these important and often fragile lands 
and ecosystems.
    Mr. Frelinghuysen has also recognized this important need, which is 
why he introduced this piece of conservation legislation. The New York/
New Jersey Highlands, consisting of nearly 2 million acres, has been 
identified by the U.S. Forest Service and virtually all other Federal, 
state, local and private authorities as critical lands in need of 
preservation.
    This region provides and protects the drinking water supplies for 
over 15 million residents of the New York and Philadelphia metropolitan 
areas. The Highlands region hosts more than 14 million recreational 
visits annually, which is more than Yellowstone and many of our 
national treasures in the West.
    The USDA Forest Service found that over 5,000 acres of land are 
being developed a year in the NY-NJ Highlands alone, threatening the 
quantity and quality of water supplies, and other critical resources in 
the Highlands. Currently, 294,000 acres, which is 77% of high-value 
lands in the Highlands are unprotected and 100,000 acres of this high-
value land are immediately threatened.
    I have joined with Mr. Frelinghuysen in this important effort and 
it is my hope to move this bill out of the Resources Committee and to 
the House of Representatives. Thank you and I look forward to hearing 
your testimony.
                                 ______
                                 
    Mr. Radanovich. Ladies and gentlemen, thank you for your 
testimony. Again, we will break. We will take a quick break, we 
will go vote, come back and hear these other two panels.
    We are in recess.
    [Recess from 2:22 p.m. to 2:54 p.m.]
    Mr. Radanovich. We are back from recess and back in 
session. Ladies and gentlemen, welcome to Panel No. 2 of the 
Subcommittee hearing on H.R. 1616 and H.R. 1964. That is Mr. 
Randy Jones, deputy director of the National Park Service here 
in Washington; Mr. David Tenny, who is the deputy 
undersecretary for Natural Resources and the Environment, with 
USDA, who is accompanied by Kathryn Maloney, with USDA.
    Welcome.
    Dave, I understand that you have got to leave soon. So if 
you want to give your testimony, and then we will ask you 
questions. I assume that you are speaking on both bills or just 
the one?
    Mr. Tenny. Just the one.
    Mr. Radanovich. On H.R. 1964. So please begin, and then we 
will ask questions of you, and then, Randy, we will save you 
for later.

 STATEMENT OF DAVID TENNY, DEPUTY UNDER SECRETARY FOR NATURAL 
RESOURCES AND THE ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE, 
  WASHINGTON, D.C., ACCOMPANIED BY KATHRYN MALONEY, DIRECTOR, 
   NORTHEAST AREA, STATE AND PRIVATE FORESTRY, FOREST SERVICE

    Mr. Tenny. Thank you, Mr. Chairman.
    I have to admit that I find it more comfortable sitting up 
there in my former capacity than sitting down here, but, 
nonetheless, it is a privilege to be here.
    Mr. Radanovich. Welcome back.
    Mr. Tenny. Thank you. In the interest of conservation; that 
is, conserving the time of the Committee and hearing what you 
would like to know, I will condense my remarks.
    As noted, I am accompanied by Kathy Maloney. She directs 
our Northeastern Area for State and Privacy Forestry in the 
Forest Service, very involved in this project, has a great 
responsibility and is responsible for much of the good work 
that is being done in this region.
    Mr. Chairman, over the last decade, the Department of 
Agriculture has been an active participant and player with 
States, local governments, local communities and others, in 
documenting and inventorying the resources' values that exist 
in this part of the country. They have done a number of 
studies. They have done some very good work and have been able 
to document what is truly there, and what is important, and 
those resources that are most significant from a conservation 
standpoint.
    Based on our experience in the region, the Department 
believes that this legislation generally tracks the findings 
and the actions that have been taken by the Forest Service over 
the last decade. We are not opposed to this bill. We would like 
to be able to work with the Committee to maybe make a few 
improvements to the bill that we think are useful and will be 
helpful in making it work, even better on the ground, and we 
recognize the importance of this area, not only to the people 
who live in and around the Highlands, but also to the Nation as 
a whole, and we would like very much to be able to work not 
only with the Committee, but with the delegation as we move 
forward.
    The most recent work that the Forest Service has done on 
the Highlands has been an update in 2002 of a study that was 
done some time ago. A couple of highlights from that study are 
probably worth noting.
    As has been stated, this is an area that is home to upwards 
of 20 million people. As many as 11 million people rely upon 
this area for their drinking water. As was noted earlier, 14 
million people visit this area for recreational purposes on an 
annual basis. Those are pretty significant numbers. They, I 
think, demonstrate the importance of the resource.
    The bill that has been introduced from the Department of 
Agriculture's standpoint does three essential things:
    First of all, it establishes what is called the Highlands 
Stewardship Area in the Highlands region. This would be an 
exercise of actually mapping the region that we would be 
looking at for purposes of identifying opportunities to engage 
in conservation types of practices, in partnership with the 
State and local communities;
    It establishes the Office of Highlands Stewardship within 
the Department of Agriculture. This would be an entity that 
would be responsible for administering the activities within 
the region, and it establishes a Highlands Stewardship Area 
Work Group, which would be a group of advisers that would come 
together, representing various interests, who would make their 
recommendations, working through their Governors and working 
with the Department and with the Forest Service on 
recommendations for activities that should move forward;
    And then, finally, the bill has a funding mechanism that 
makes use of the Land and Water Conservation Fund.
    We have noted in our testimony some of the recommendations 
that we would have. Rather than going into those in detail, 
what I would like to do is just reiterate the position that we 
have that we would like to work with the Committee on this bill 
and do our very best to try and move forward in a reasonable, 
balanced way.
    I would be happy to answer any questions that the Committee 
might have that, hopefully, will be helpful to you as we move 
forward.
    Thank you.
    [The prepared statement of Mr. Tenny follows:]

Statement of David Tenny, Deputy Under Secretary, Natural Resources and 
       Environment, U.S. Department of Agriculture, on H.R. 1964

    Mr. Chairman, thank you for this opportunity to present the 
Administration's views on H.R. 1964, the Highlands Stewardship Act. I 
am David Tenny, Deputy Under Secretary for Natural Resources and 
Environment, U.S. Department of Agriculture (USDA). I am accompanied 
today by Kathryn Maloney, Director of the Forest Service Northeastern 
Area.
    Mr. Chairman, over the last decade, the Department of Agriculture 
has been an active partner with States, local governments, academics, 
landowners, community-based organizations, and others in documenting 
the resource values and supporting land conservation efforts in New 
York and New Jersey, two of the four states included in this 
legislation.
    Based upon our experience in this region, the Department believes 
this legislation generally reflects actions and findings that we have 
already taken to date. We are not opposed to the measure, but we would 
like to work with the committee to make improvements to the bill. I can 
assure the Subcommittee that the Department of Agriculture recognizes 
the importance of the Highlands area and supports the desired land 
management objectives of H.R. 1964, which builds on the body of work we 
have completed.
    At the direction of Congress, in 1992, the USDA Forest Service 
completed the New York-New Jersey Highlands Regional Study that 
characterized the water resources, wildlife habitat, outdoor recreation 
opportunities, and agricultural resources in the region. This study 
identified lands with important resource values such as the Sterling 
Forest located near Tuxedo, NY.
    Over the past 10 years, the Forest Legacy program with $4,000,000 
in Federal funds has leveraged over $14,000,000 in non-Federal funds to 
secure conservation easements and other interests in 3,400 acres in New 
Jersey and New York. Over the last five years, private landowners, 
nonprofits and State and local governments, through a range of Forest 
Service non-regulatory, technical and financial assistance programs 
have leveraged nearly $750,000 toward land conservation activities. 
These include technical and financial assistance to states and 
communities and landowner assistance for management planning and 
implementation of conservation practices.
    The Forest Service updated the New York-New Jersey Highlands 
Regional Study in 2002. The original study area was expanded from the 
Hudson River eastward to the New York-Connecticut border. The Update 
identifies a number of many important natural resources in the 
Highlands, and the effect of existing patterns of land use change on 
these resources. Some key findings from the 2002 Update include:
    <bullet> The Highlands adjoin a metropolitan area of more than 20 
million people.
    <bullet> More than 11 million people rely on the Highlands water 
resources.
    <bullet> More than 14 million people visit the Highlands each year 
for recreational opportunities.
    <bullet> 5,200 acres per year of land was developed between 1995 
and 2000.
    <bullet> Almost 40 percent, 540,000 acres, are considered to have 
high conservation value. Nearly half of these lands are currently in 
some type of permanent conservation arrangement, such as an easement or 
under a nonprofit land trust holding.
    <bullet> Approximately 100,000 acres considered to have high 
conservation value have a high likelihood of change.
    <bullet> Forty two of the 51 existing Hydrologic Unit Code 11 
watersheds (which have an average area of about 50 square miles) 
presently have 10 percent or less impervious surface cover (a 
significant indicator of water quality). Depending on the rate of land 
use change, this number could fall to between 18 to 9 in the next 
thirty years.
    <bullet> The future population in the New Jersey-New York 
Highlands could increase by 26 to 48 percent in the next 30 years, 
based on our analysis.
    H.R. 1964 directs the Secretaries of Agriculture and the Interior, 
in consultation with appropriate Federal officials, the Governors of 
the four states, and local units of government, to establish the 
Highlands Stewardship Area in the Highlands region. It provides that 
not later than one year after the date of enactment of this Act, the 
Secretaries shall prepare a map depicting the Stewardship Area.
    The bill also directs the Secretary of Agriculture to establish the 
Office of Highlands Stewardship to implement the strategies of the 1992 
Study and 2002 Update. The Office would be authorized to provide 
financial and technical assistance to an eligible entity to carry out a 
project to protect, restore, preserve, promote or interpret Area 
resources.
    H.R. 1964 also directs the Secretary of Agriculture to establish 
the Highlands Stewardship Area Work Group to assist with implementation 
of those strategies and to advise the Secretaries on priorities for 
projects carried out with assistance provided pursuant to the Act.
    Finally, the bill directs the Secretary of the Interior to 
designate annually land conservation partnership projects that are 
eligible, under certain conditions and with specified limitations, to 
receive financial assistance under the Act. H.R. 1964 would authorize 
appropriations of $25,000,000 to the Secretary of the Interior from the 
general funds of the Treasury or the Land and Water Conservation Fund 
for each of Fiscal Years 2004 through 2013 to be used for this purpose.
    As part of a Congressional request in Fiscal Year 2002, the 
Secretaries of Agriculture and the Interior will be putting forth a 
joint set of recommendations identifying ways that Federal Government 
can work with State, local and non-profit partners to address important 
resource issues, based on the findings of the 1992 Study and 2002 
Update. These recommendations are currently in executive branch 
clearance. I believe when they are provided to Congress that they will 
be consistent with several of the key components of H.R. 1964.
    However, this afternoon, I want to bring to the Subcommittee some 
issues that the Department has identified with H.R. 1964 that may 
require further consideration by the Subcommittee.
    First, the legislation covers a 2 million-acre, four-state region. 
The Department's efforts to date have concentrated on the 1.5 million 
acre New York-New Jersey portion of the region, and have only generally 
characterized the resource values in the Pennsylvania and Connecticut 
portions of the proposed Highlands Stewardship Area. More thorough 
consideration and inventory of the resource values in Pennsylvania and 
Connecticut is needed. It is important to have current and accurate 
inventory information for Pennsylvania and Connecticut so that natural 
resources in all four states can be considered equally for the 
technical and financial assistance authorized by this legislation. This 
type of comprehensive resource assessment would require additional time 
and money, and is not now addressed in H.R. 1964.
    Second, the specific organizational requirements mandated in H.R. 
1964 could duplicate existing activities and organizations that support 
land conservation in the Highlands region. For example, the functions 
articulated for the Office of Highlands Stewardship are currently 
performed by the staff of the Forest Service's Northeastern Area of 
State and Private Forestry. The measure is unclear about which USDA 
agencies other than the Forest Service or Natural Resources 
Conservation Service, if any, are to participate in the Office of 
Highlands Stewardship, the organizational location of that office 
within USDA, or its relation to the Department of the Interior. The 
Subcommittee should consider using the existing Forest Service 
organizational structure.
    To our knowledge, the bill does not authorize any activity not 
already authorized under current law. USDA could designate the 
Highlands area as a high priority within existing authorities to permit 
its agencies to address resource issues in the Highlands region. The 
bill's targeting of technical assistance, financial assistance, and 
land conservation projects could require USDA to determine the priority 
of these activities relative to other high-priority programs or 
projects that may relay on the same funding source.
    The bill is also unclear about how land conservation projects would 
be funded, authorizing funds either from Treasury or the Land and Water 
Conservation Fund (LWCF) but not indicating whether the projects 
authorized under the measure are the same as land acquisition 
authorized by LWCF.
    The measure includes a concept for focusing intra- and cross-
departmental Federal conservation assistance on non-Federal lands but 
has few details on the idea, particularly with regard to how this 
designation would change with respect to on-the-ground management of 
lands within the stewardship area, most of which are privately owned.
    In addition, the Department believes H.R. 1964 would be improved by 
clarifying several provisions.
    H.R. 1964 lists the Palisades Interstate Park Commission as both a 
``Highlands State'' and as a ``non-Federal entity''. The Commission 
should not be considered a State. It should be listed as a non-Federal 
entity only.
    Section 5(c) directs the Secretaries to prepare a map of the 
Highlands Stewardship Area within one year. As discussed previously, 
the Department believes it prudent to undertake an analysis of the 
500,000 acres in Pennsylvania and Connecticut that are proposed to be 
included in the Area. If the Subcommittee concurs, the deadline for 
preparing the map should be extended so that the two-state assessment 
could be conducted.
    Also, if a primary purpose of the map is to delineate the 
properties and communities that are envisioned to be eligible for the 
technical and financial assistance to be provided under H.R. 1964, the 
Subcommittee should consider clearly stating that is the purpose for 
which the map is to be used by the Secretaries.
    The Highlands Work Group set forth in Section 6(c) would alter the 
informal collaborative process that successfully operated for a decade.
    During the study process, an informal work group met periodically 
and was effective in providing valuable input. More than 100 
organizations and individuals, representing a broad spectrum of 
interests, were invited to participate, building good working 
relationships and a sense of inclusiveness.
    The proposed Highlands Work Group would fall under the provisions 
of the Federal Advisory Committee Act (FACA). Congress has had occasion 
to exempt advisory groups from FACA for various reasons. The Department 
is concerned whether a 100-member FACA committee would be effective and 
timely. The Department suggests that more specific guidance on the 
selection of members and the appointment of a Chair be provided, if 
FACA is to apply. However, our experience has shown that an inclusive, 
informal model could serve as the mechanism for inter-governmental 
consultation and public participation.
    Mr. Chairman, that concludes my statement. The Department would be 
pleased to work with the Subcommittee on amendments to the provisions 
discussed in my statement.
    I would be happy to answer any questions you may have for me at 
this time.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Tenny. A couple of 
questions.
    As the concept of this project comes up, in my mind, I am 
having trouble figuring out where it fits in either the 
National Park Service or USDA. What is a stewardship area? is 
this something that exists already or are we creating something 
that has never existed before? Are there similar examples of 
this type of a partnership?
    Mr. Tenny. This type of partnership occurs frequently 
within our State and private forestry area. The term 
``stewardship area,'' I don't believe is necessary a term of 
art. Kathy can correct me on that if I am wrong.
    Ms. Maloney. That is correct.
    Mr. Tenny. But this is more a term that is descriptive of 
the way we have been working with the communities and with the 
States in this region of the country.
    Mr. Radanovich. Can you give me an example of one in 
California?
    Mr. Tenny. I don't think that there is one that would be an 
exact match to what we are doing here in California.
    Mr. Radanovich. Good enough.
    I recognize Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I don't believe you had an opportunity to get into the 
improvements of the bill, and I wasn't really listening to your 
question. I hope I am not asking you a question that was 
already asked, but you said you would work with the Committee 
to make improvements to the bill. Would you like to just 
outline some?
    Mr. Tenny. Yes. Let me just outline, really briefly, a 
couple of the improvements that we would suggest.
    There are what I would call some technical improvements. 
Rather than taking your time on those, let me give you some of 
the bigger picture improvements.
    We have been looking at this area for over a decade, and 
the area that we have been most focused on has been the area 
that has been in New York and New Jersey. The bill covers a 
little bit larger area than what is reflected in our studies, 
and there is a requirement to do some mapping so that we are 
clear on the area within which we are going to be doing the 
technical assistance and other conservation practices.
    Because we are a little bit light on some of the inventory 
of the resources that we need in the expanded area, we would 
like some further time to be able to look at that, so that as 
we are making our decisions, we are doing it on an informed 
basis.
    Secondly, because we have a structure in place in our 
Northeast Area for State and Private Forestry, we would like to 
work with the Committee and with the delegation on what the 
Office of Highlands--or the office that is established in the 
bill--how we can make sure that that doesn't duplicate any of 
the existing infrastructure that we have in place because we 
are confident that the organization is in place now that could 
really do a good job, and we would like to see that continue 
without a hiccup if we are going to be moving forward.
    And then, finally, as I mentioned, there are a few 
technical corrections that we want to make in the bill, but I 
think that probably covers the high points.
    Mrs. Christensen. Just looking through your testimony, it 
just seems like it is more a matter of coordination of 
activities that are either already being done or underway or 
planned more than needing to create an additional structure.
    Mr. Tenny. That would be correct.
    Mrs. Christensen. Twenty-five million dollars a year from 
the Land and Water Conservation Fund seems like an 
extraordinarily large amount of funding that we would be 
authorizing out of that fund. I should have asked the staff how 
much is usually available, but do we fund projects out of that 
fund at that level over 10 years?
    Mr. Tenny. I can tell you a little bit about what the 
Forest Service does. It probably would be a good idea for me to 
refer to my colleague, Mr. Jones, to talk about how the Land 
and Water Conservation Fund, in general, is administered out of 
the Department of Interior.
    But in the past, the Forest Service has been using the 
Forest Legacy Program, which is an ongoing program. Last year 
it was funded at probably about, if I am not mistaken, around 
$70 million/$75 million to do some of the conservation work. 
This is acquiring helping States and other entities acquire 
conservation easements another types of work of that nature. 
That is the purpose of the Forest Legacy Program.
    In addition to that, the other agencies within the 
Department of Agriculture also administer technical assistance 
programs. For example, the Farmland Trust helps also do some 
conservation work for farmland. So there are a number of 
different programs that are used to do this kind of work.
    Mrs. Christensen. My understanding is that we appropriate 
approximately $100 million a year for that fund for use by all 
of the States.
    Mr. Jones. That is correct. The current fiscal year for the 
stateside Land and Water Conservation Fund is $97 million, and 
then within the National Park Service, $74 million is 
appropriated for land acquisition within the units of the 
National Park Service.
    We have funded a couple of projects in this area in recent 
years, including under our Rails to Trails Program. We have 
supported a planning and orientation to help establish a couple 
hundred miles of hiking and biking trails, and we also 
provided, under the Land and Water Conservation Fund, a grant 
of $1 million, which was matched by the State, for a $2-million 
purchase.
    Mrs. Christensen. There is a joint Agriculture-Interior 
update of the 1992 Highlands Study. When would that be 
completed? Do I understand it should be ready soon?
    Mr. Tenny. Yes. There is an update that has been completed, 
and then in 2002, Congress, in the appropriations bill, 
requested some recommendations based upon the update. Those are 
moving through the agencies as we speak. We expect for those to 
be coming to the Department in very short order, and we will be 
transmitting those to Congress soon thereafter.
    Mrs. Christensen. Ballpark time?
    Mr. Tenny. Ballpark time will be----
    Ms. Maloney. It is in clearance.
    Mr. Tenny. It is in clearance right now? If it is in 
clearance right now, that means it is going to be on our desk 
in just a very short time, and then it is a matter of just 
moving it through the interagency clearance process, which 
shouldn't be too long. I believe we are talking a matter of 
weeks.
    Mrs. Christensen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    The Chair recognizes Mr. Saxton from New Jersey for 5 
minutes.
    Mr. Saxton. Thank you, Mr. Chairman. I, again, appreciate 
your willingness to permit me to sit on this panel of which I 
am not a member.
    Let me just begin by----
    Mr. Radanovich. Oh, you are not?
    Mr. Saxton. Pardon me?
    [Laughter.]
    Mr. Saxton. Mr. Chairman, the intent of this bill is well 
shown by looking at the two photographs over here or 
demonstrated by looking at the two photographs. The photograph 
on the right is New York City, the photograph on the left is 
the Highlands, and the photograph on the right is a picture 
taken from the Highlands.
    And I point this out because in States like New Jersey, and 
Connecticut and New York that have a center of commerce, a 
growing center of commerce, which is an attraction, obviously, 
for people to find good jobs, and it creates, inevitably, a 
situation where the beautiful greenlands, like the lands of the 
Highlands, become subject to very rapid development.
    And in New Jersey, which is already the most densely 
populated State in the country, there is no issue that unifies 
liberals and conservatives, Republicans and Democrats, 
suburbanites and people who live in the country more than the 
preservation of open space. This is a really big deal for our 
State.
    I remember years ago, probably 30 years ago, my family and 
I enjoy sailing, and we would sail out of the little creek 
where we kept our boat, it is called Cedar Creek, and sail 
south on Barnegat Bay. On the left is a barrier island called 
Island Beach State Park, and it was natural, and still today is 
natural, and to the right was the mainland. It was beautiful 
trees, just like the picture that you see here on the left.
    Today, if you superimposed what has happened to the 
mainland, as I looked over my shoulder sailing to the south, 
that picture would be nothing but rooftops, and that is what 
has happened in so many areas of New Jersey. We have got a 
great highway system, we have great work opportunities. If I am 
not mistaken, and Mr. Frelinghuysen can correct me if I am not, 
I think our per capita income is one of the highest, if not the 
highest, among all of the States. And so it is a great place to 
live. It is an attractive place for people to come and build 
homes, so much so that people who live in New Jersey today want 
nothing more than to preserve the open space that is left.
    So I commend, Mr. Frelinghuysen, on his foresight of 
drafting H.R. 1964, and I commend the Administration for their 
careful examination. As a matter of fact, I want to commend the 
Forest Service for producing an excellent 2002 update on the 
Highlands Regional Study. Thank you for doing that, and thank 
you for understanding the needs of New Jersey.
    Mr. Tenny, can you elaborate for us, with regard to the 
study, why the study so forthrightly declares this region to be 
one of national significance.
    Mr. Tenny. I think it is, probably the most direct answer 
to that question is because of the unique nature of the region. 
As you pointed out, there are some very populated areas, but a 
very unpopulated area, for the most part, and because of that 
there are some resource values that have a very direct effect 
on the livelihoods, quality of life and the experiences in 
these areas that those very populated areas have.
    I think in the total region there were, of the $1.5 million 
acres, there was somewhere in the neighborhood of a half-a-
million acres that had some very, very unique ecological values 
attached to them that were identified by the Forest Service. 
Because of their character, and their nature, these were of 
high value either for their water quality or because they were 
home to a listed species or because of high-value recreation 
opportunities, that sort of thing.
    And so there is a prioritization that has occurred, as the 
Forest Service has looked at this area, but that prioritization 
has demonstrated that there are some areas here that are truly 
significant and truly unique.
    Mr. Saxton. Thank you. One final quick question. I think 
one of the highlights of Mr. Frelinghuysen's bill is the 
incorporation of the willing sellers and public-private 
partnerships. Can you speak to those issues and tell us how you 
think they fit within the Administration's concept of land 
conservation.
    Mr. Tenny. Yes. Obviously, when you are talking about land 
conservation at the local level, as has been noted in this 
hearing already very well, it is critical that those who are 
involved at the local level, not only in identifying the 
issues, the right issues that need to be addressed, but in 
making decisions about those issues, working together, are the 
ones who ought to be directly involved.
    When you are talking about those who own property, it is 
absolutely essential that those who own property are able to 
exercise the rights of property ownership, and in that regard, 
I note that the bill has language in it that makes clear that 
there is a willingness that has to be demonstrated on the part 
of the property owner in order to participate in the conveyance 
of any of their interests in property, and that is an important 
principle.
    The Secretary has talked about working lands as a concept 
moving forward, in terms of addressing some of the challenges 
that we face for our rural communities and rural landowners, 
and certainly it is a principle that we adhere to, making sure 
that as we work with local communities, that we are taking into 
full account the interests of those local landowners and the 
importance of their ability to maintain their property 
interests in a way that is not only comfortable to them, but is 
not coercive in any way, in terms of what they do with those 
interests.
    Mr. Radanovich. Thank you, Mr. Saxton.
    Mr. Frelinghuysen?
    Mr. Frelinghuysen. Mr. Chairman, I want to thank you for 
the opportunity to testify earlier, and I want to thank 
Congressman Saxton for so well articulating a lot of the 
excitement and the importance of this legislation, and to Mr. 
Tunny and your colleagues who put together this updated report, 
done with a huge collaboration of so many interested parties.
    It was then-Governor Christie Todd Whitman, what, seven or 
8 years ago, who set a goal just for New Jersey of saving a 
million acres from development and set her heart and soul into 
that. Her vision has been endorsed by a Democratic successor, 
Jim McGreevey, and every step is being made, obviously, to 
recognize the need for home ownership and the desire of people 
who live in this wonderful area, but to recognize that what 
makes it special is its open space and farmland, which is 
rapidly disappearing. But the work that you did to highlight 
why it is so important is essential to the success of this 
legislation, and I really appreciate your being here today.
    And this is part of a process, and you have made some 
excellent suggestions, which I am sure the Committee will 
consider. And if the bill needs some improvement, we will be 
happy to do it, but our heart and soul is in this bill and has 
wide bipartisan support on both sides of the aisle and 
throughout a four-State region. So I want to thank you for all 
of your efforts, and thank you, again, Mr. Chairman.
    Mr. Radanovich. You are welcome, Mr. Frelinghuysen.
    Dave, is there a presence in this area by the Forest 
Service right now?
    Mr. Tenny. The Forest Service doesn't have a physical 
presence in that there is not a ranger district or a forest, 
obviously, but the Forest Service has a presence in the area. 
The Northeast Area for State and Private Forestry of the Forest 
Service covers about 20 States, and they provide, on an ongoing 
basis, technical assistance. They help with forest health 
monitoring and other types of work, working with the State 
foresters to address forest health issues and other resource 
management issues. So there is a presence in the region.
    Kathy, do you want to elaborate on that? Kathy directs the 
area. She can tell you, with precision, exactly what we do.
    Ms. Maloney. In addition to what Dave has said, we have 
had, through the course of the study that was updated in the 
last 2 years, we have had a coordinator onsite in the Highlands 
area, working with the public and doing the coordination and 
help with setting up meetings and bringing people to this 
discussion. That is a person who is in a term appointment 
position, and we have trained her so well she has accepted a 
new job and will leave at the end of this month.
    But there has been that sort of presence there, and as an 
organization, while our headquarters are near Philadelphia, we 
have the flexibility to position people where they are needed, 
and we do that throughout the 20-State area that I manage. So I 
would expect a continued presence of some sort there, depending 
upon the role that is agreed to by the Secretary and 
recommended up here.
    Mr. Radanovich. Can you tell me, with regard to the private 
property owners that would fall under this designated area, if 
such a thing were to occur, what happens to their property 
values once it is under that designation? I mean, I know that 
there is going to be a willing seller involved, but there has 
been a history of, when there is Federal land, when the land is 
being projected for a particular use, usually that land value 
goes down before it is bought. Is that typical?
    Mr. Tenny. In this area or generally? I think I will talk 
about this area and what I do know, and that is that as we have 
worked in this area in the past, I don't know that we have 
identified any direct impacts on property values that have been 
caused by the reports that have been done. Whether an 
additional or new designation of the area would have that kind 
of an impact, to be honest with you, I don't know that we have 
studied that directly, and so it would be a little bit 
speculative to say that.
    However, I do believe that there probably would be some 
effect on property values, depending upon where they are within 
this area. Obviously, the further away you get from highly 
developed areas, probably the more likely that impact might be.
    Mr. Radanovich. I yield to Rod, if you want to further 
comment.
    Mr. Frelinghuysen. If anything, land values continue to 
escalate, which is germane to the earlier question as to why 
this figure has a $25-million annual goal. Whether that is 
achievable or not would depend largely on the work of those of 
us who serve on the Appropriations Committee, from whatever 
State you are, in terms of the Land and Water Conservation Fund 
or whatever Federal source, but that land values continue to 
escalate, this is a very expensive piece of real estate here.
    There won't be any diminution of value. If anything, that 
is why land is so expensive here, just to be any tract of land. 
And there are certain tracts of land that have been identified 
either by the U.S. Forest Service or other local agencies that 
are particularly important to watershed protection. And if we 
don't act quickly, a lot of that watershed would be violated 
forever, and I think that is sort of what is the root cause of 
why we are moving and trying to move with some rapidity.
    Mr. Radanovich. If I can, too, comment, and I still need to 
know what a stewardship area is, when it is all said and done, 
because it is very cloudy, in my mind. But an area of private 
property that falls under this type of designation, though, and 
I would assume the private property that is in that designation 
has certain development rights that are, by the very nature of 
falling into an area such as this, as soon as I find out what 
it is, you would, in a sense, lose your development rights, and 
that is where your property value would decline.
    Mr. Frelinghuysen. Local control, Mr. Chairman, is still 
maintained. New Jersey has, for instance, 21 county 
governments. It has over 500 municipalities. They still retain 
the power to decide where development goes. Nobody is losing 
their property rights as a result of this difficult-to-describe 
stewardship designation. The stewardship actually already 
exists through a State, Federal, municipal and county 
collaboration. It is to continue the collaboration and to make 
it more successful in preserving pieces of land that are 
literally under the gun to be developed, inappropriately to be 
developed.
    Mr. Radanovich. So what is a stewardship area, and where 
are the examples of this?
    Mr. Tenny. I think probably the best way to answer that----
    Mr. Radanovich. I have been on this Committee for 8 years, 
and I have never heard of anything like this. So this is new to 
me.
    Mr. Tenny. Yes. A stewardship area would be whatever this 
piece of legislation would define it to be. There is no 
designation, within the Agency right now, of a stewardship 
area, per se. So that is one of the questions that would be 
answered by a piece of legislation like this. It would 
certainly be a defined area on a map. It would certainly have 
certain types of values associated with it, and some of those 
have been identified. Probably most of those have been 
identified by the studies that have been taking place and some 
of them have been listed in the bill.
    But I think the bottom line is that a stewardship area of 
this nature would be whatever this bill would define it to be.
    Mr. Radanovich. I yield to Mr. Saxton.
    Mr. Saxton. Mr. Chairman, let me take a crack at the two 
issues that you have brought up.
    First, with regard to the stewardship issue, I am not sure 
that there is a legal or Federal definition of stewardship 
area, but the term ``stewardship'' would tend to imply that the 
Federal Government is somehow overseeing this tract of land, 
the Highlands.
    There is another example of this in New Jersey, but it is 
different, and very different. And so I don't want to confuse 
the two, but in I believe the late 1970's, the Federal 
Government passed a law creating the Pinelands National Reserve 
in New Jersey, and it was different than this because there 
were specific mandates that the Pinelands National Preserve 
delineated.
    And they said the State will become the caretaker of the 
Pinelands National Preserve, and the State then enacted a law 
to implement their responsibilities. They created a commission, 
and it, in effect, usurped a certain amount of local zoning. 
Well, everybody wanted that to happen in New Jersey for many of 
the same reasons that I stated before.
    In this case, there is no prescribed method of governance 
by the Federal Government or by the State. It simply sets this 
land aside and says that $25 million a year could be used to 
purchase the property or the property rights, the development 
rights, I suppose, of anybody who wants to sell them.
    And so the stewardship in this case is defined differently 
than the stewardship that is in my district, through the 
Pinelands National Reserve. Would you tend to agree that that 
is a fair analysis of what is happening?
    Mr. Tenny. I think that is probably pretty fair. One point 
that was raised here that made some sense is that what is being 
proposed here is, in many ways, analogous to what occurs with 
the Forest Legacy Program right now because the State will 
enroll in the Forest Legacy Program, the State will identify 
lands that are eligible for Forest Legacy assistance, and then 
those lands, those areas will be prioritized on a national 
basis, and then they are put into a queue based upon their 
priority. Sometimes Congress will identify priorities for us.
    And then the assistance, whatever it may be, in this case, 
with Forest Legacy, is it often an easement, a conservation 
easement of some kind or some other interest in the land for 
conservation purposes, monies will be appropriated for that 
purpose, and then we move forward.
    That might be the most analogous, from a programmatic 
standpoint.
    In this case, it appears that the designation of this area 
would be for the purposes of identifying those lands that would 
be available or be eligible for certain types of assistance; 
for example, some technical assistance or other types of 
research assistance or, in some cases, the acquisition of 
easements on a priority basis.
    So, really, the designation of the area is, more than 
anything else, the establishment of a priority for the delivery 
of certain kinds of assistance and other types of funding for 
easements.
    I think that is probably maybe the best description of it, 
for purposes of the----
    Mr. Saxton. Thank you. If I could take a crack at the other 
question that you raised, which I think is an important one, 
what happens to property values? Mr. Frelinghuysen just told me 
that there is about two million acres in this parcel, and if we 
could just assume, for one moment, that, and let us say over a 
10-year period, that owners of one million acres decided they 
wanted to take part in the program, and somehow we found the 
money to purchase a million acres, and assume also that the 
demand remains relatively stable. Because the supply of land 
has been significantly reduced, would it then cause the price 
of the remaining buildable land to increase?
    Mr. Tenny. I think that is probably true. I think you see 
it in different places, and certainly the intensity of that 
effect varies from place-to-place. Obviously, population 
pressures and folks looking for opportunities to build and to 
expand will have its influence on that, but I think that, 
generally, your premise is correct.
    Mr. Radanovich. Mr. Tenny, thank you very much for being 
here. We appreciate the testimony.
    And, Mr. Randy Jones, of the National Park Service, sir, if 
you want to go ahead.
    Are you speaking to both, Randy, or what?
    Mr. Jones. Yes, Mr. Chairman.
    Mr. Radanovich. You are welcome to be brief, if you would 
like to.

         STATEMENT OF A. DURAND JONES, DEPUTY DIRECTOR, 
            NATIONAL PARK SERVICE, WASHINGTON, D.C.

    Mr. Jones. In fact, I would be very happy to be brief, and 
I would ask that my statements be submitted for the record in 
their entirety.
    I will start very briefly with thanking you for the 
opportunity to present the views on H.R. 1616. The bill would 
authorize the exchange of lands within Martin Luther King, 
Junior, National Historic Site for lands owned by the City of 
Atlanta.
    The Department of Interior supports H.R. 1616. I think, as 
several members have pointed out, this is one of the best 
examples of a win-win proposal we think we have ever seen.
    It would allow us to provide, in exchange with the City of 
Atlanta, provide for the city lands that are currently 
undeveloped, with only a temporary structure on them, that 
would be used by the city to help the urban renewal and 
revitalization of this important historic district and provide 
lands coming from the City of Atlanta to the National Park 
Service, which would provide really critically needed access, 
especially for emergency services to the park's visitor center. 
The visitor center actually is on lands that have already 
previously been donated by the City of Atlanta to the park 
itself.
    So we think this is an excellent proposal, and we think it 
will help all of the parties involved, and we do strongly 
support it, Mr. Chairman.
    Moving on to H.R. 1964, a bill to establish the Highlands 
Stewardship Area in the State of Connecticut, New Jersey, New 
York and the Commonwealth of Pennsylvania.
    As you know from the testimony just presented, the U.S. 
Forest Service is the lead agency on this, which we continue to 
support them being the lead. The background has already been 
provided by several members, as far as the significance. There 
is no doubt there is a great significance to this area.
    One of the things that we think this bill does provide is 
it provides a focus of what are several different Federal 
programs and their importance to the area.
    From the National Park Service point of view, several units 
of the National Park Service are within the boundaries of this 
area, including Morristown National Historic Park, part of the 
Appalachian Trail, the Delaware Water Gap National Recreation 
Area, the Upper Delaware and Farmington Wild and Scenic Rivers, 
and two Heritage Areas--the Hudson Valley Heritage Area and the 
Delaware Lehigh Valley National Heritage corridor.
    As I mentioned earlier in questions, the National Park 
Service has had a role in this area, through the stateside Land 
and Water Conservation Fund. We think that is a role that can 
continue.
    As our reading of the bill is not really, other than the 
authorization of funding, is not really providing any new 
specific authority, but as I said earlier, providing a focus of 
several different authorities to recognize the importance of 
this area. Otherwise, we would actually defer to the U.S. 
Forest Service for their positions on the area.
    So, with that, I would be happy to answer any questions the 
members might have.
    [The prepared statement of Mr. Jones on H.R. 1616 follows:]

 Statement of A. Durand Jones, Deputy Director, National Park Service, 
             U.S. Department of the Interior, on H.R. 1616

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present the Department's views on H.R. 1616. This bill 
would authorize the exchange of lands within the Martin Luther King, 
Junior, National Historic Site for lands owned by the City of Atlanta, 
Georgia.
    The Department supports H.R. 1616. The bill would allow the 
National Park Service (NPS) to exchange land currently owned on 
Edgewood Avenue for land of equal or greater value from the City of 
Atlanta (City). The exchange would provide the Martin Luther King, 
Junior, National Historic Site (park) with emergency access to the park 
visitor center, and would help in the continuing revitalization of 
Edgewood Avenue. Although appraisals have not been completed, there 
would be no acquisition costs associated with this equal value 
exchange. Development of the newly acquired land, in order to provide 
paved access for emergency vehicles, is estimated to cost $160,000. 
There would be no increase in operational costs or the need to fund 
additional facilities.
    H.R. 1616 would amend Section 2(b) of P. L. 96-428, the act that 
established Martin Luther King, Jr. National Historic Site, to allow 
the Secretary of the Interior to acquire land within the boundary of 
the park that is owned by the State of Georgia, or any political 
subdivision of the State, by exchange. Currently, P. L. 96-428 only 
allows the Secretary to acquire such lands by donation.
    The park and nearby Preservation District, which includes Sweet 
Auburn, the economic and cultural center of Atlanta's African American 
community during most of the 20th century, were established in 1980 to 
preserve, protect and interpret the places where Dr. King was born, 
worked, worshiped, and is buried. Located near downtown Atlanta, the 
park consists of 34.47 acres, of which 13.04 acres is currently in 
Federal ownership.
    Most of the park is self-guided, including the visitor center, 
Historic Ebenezer Baptist Church, Dr. King's gravesite, Freedom Hall 
and Historic Fire Station No. 6. Guided tours are provided for Dr. 
King's Birth Home. In addition, the park preserves and maintains 22 
historic properties. Most of these properties are located on the same 
block as the Birth Home and are restored to the 1930s period when Dr. 
King lived on Auburn Avenue. These historic properties are leased, as 
residential units, to the general public.
    In 1992 when the NPS began planning for a visitor center, the 
preferred location was determined to be the site of the City owned 
Martin Luther King, Jr. Community Center. In accordance with P.L. 96-
428, land could only be acquired from the City of Atlanta by donation. 
The City, realizing the importance of having an NPS visitor center 
within the park, agreed to donate the community center to the NPS.
    Due in large part to the City's generosity, the visitor center has 
been completed. However, emergency vehicles are unable to access the 
visitor center from nearby streets and additional land is needed to 
provide this emergency vehicle access. The City owns 1.71 acres that 
are adjacent to the visitor center, have easy access from Jackson 
Street, and could be developed to provide the needed emergency access 
for the visitor center. The City is interested in conveying all, or a 
portion, of this property to the NPS through an exchange.
    When the park was established, the boundary was created to ensure 
the preservation of Dr. King's neighborhood. Included within the 
boundary is Edgewood Avenue. In order to assure preservation of the 
area NPS has gradually acquired several properties along Edgewood 
Avenue, which was a deteriorating commercial area.
    At the time the park was established, there were no local efforts 
to preserve properties along Edgewood Avenue. However, during the past 
10 years several individuals and organizations, with the support of the 
City, have initiated restoration of the preservation district, 
including Edgewood Avenue. NPS ownership on Edgewood Avenue is no 
longer needed solely to ensure preservation and NPS has identified land 
along Edgewood Avenue that would be suitable for an exchange with the 
City, in order to acquire the parcel adjacent to the visitor center.
    That completes my testimony. I would be happy to answer any 
questions that you or any members of the Subcommittee may have.
    Thank you, Mr. Chairman.
                                 ______
                                 
    [The prepared statement of Mr. Jones on H.R. 1964 follows:]

 Statement of A. Durand Jones, Deputy Director, National Park Service, 
             U.S. Department of the Interior, on H.R. 1964

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 1964, a bill to establish the 
Highlands Stewardship Area in the states of Connecticut, New Jersey, 
New York, and the Commonwealth of Pennsylvania. As you know, the 
U.S.D.A. Forest Service has the lead on this initiative. We will defer 
to them on provisions of the bill affecting the Forest Service and only 
comment on provisions relating to the Department of the Interior and 
the collaborative role our two Departments have played in this 
important natural area.
    The Highlands Area, comprising more than 2 million acres in one of 
the most urbanized sections of the country, contains numerous natural 
and cultural resources worthy of protection. It is a water supply 
source for over 11,000,000 persons, provides critical habitat to a wide 
variety of plant and animal species, and is the site of many historic 
events that have shaped our nation including significant actions 
related to the American Revolution. It is also an area rapidly 
experiencing the impacts of urbanization.
    The Highlands Area has been the subject of many past studies 
described in the bill that document its important natural and cultural 
resources. It also contains units of the National Park System including 
Morristown National Historical Park and the Delaware Water Gap National 
Recreation Area; designated wild and scenic rivers including the Upper 
Delaware and Farmington Rivers; and two designated national heritage 
areas--The Hudson River Valley National Heritage Area and the Delaware 
and Lehigh National Heritage Corridor. The National Park Service has 
enjoyed long-standing partnerships with many of the governments and 
organizations in this region.
    In 1992, the Forest Service completed its initial study of the 
Highlands Region, which was authorized by the 1990 Farm Bill. The study 
supported land stewardship and watershed based planning activities, 
identified voluntary and non-regulatory means to protect important 
areas, fostered public awareness of the region's resources, and 
identified priority areas for protection. In 2000, under Representative 
Frelinghuysen's leadership, Congress recognized the need to revisit the 
study's findings and authorized an update in Public Law 106-291. The 
Forest Service completed the update this year with the National Park 
Service providing comments on the draft report. The draft report is the 
product of extensive public participation across the Highlands Region, 
including involvement by members of the working group from over 120 
municipalities, non-profit groups, private groups, and citizens in 12 
counties as well as other Federal agencies and members of Congress.
    Congress has requested that at the conclusion of the update, the 
Secretaries of Agriculture and Interior report on how they will work 
together to implement the recommendations of the study. In the draft 
report, the Secretaries provide three recommendations for a continued 
Federal role in the Highlands Region including: supporting the 
stewardship of the Highlands region, ensuring the availability of 
science-based information, and partnering in local land stewardship 
activities. The Secretaries are in the final stage of completing this 
document and hope to transmit it to Congress in the very near future.
    We currently see many opportunities for participation in the 
Highlands Region through existing programs of the Department of the 
Interior. Projects within the region may qualify for Rivers, Trails and 
Conservation Assistance, Wild and Scenic Rivers Program assistance, and 
Land and Water Conservation Fund (LWCF) assistance, among others. For 
example, through the LWCF program, the Rockaway Township in the 
Highlands Region of the State of New Jersey recently acquired 294 acres 
of land adjacent to the Wildcat Ridge Wildlife Management Area to 
protect open space inhabited by endangered species including the 
threatened bald eagle. Through our Rivers, Trails and Conservation 
Assistance Program, we are working with local groups along the Delaware 
and Hudson Canal to create a 220-mile network of trails (including 
water trails), scenic railroads, and scenic byways. We look forward to 
continuing this productive relationship with the Department of 
Agriculture, the four states, local governments, and many present and 
new partners in the Highlands Region as we strive to protect natural, 
historic, and cultural resources.
    Our concern with the bill is its cost. H.R. 1964 would authorize 
the appropriations of $250 million from the Land and Water Conservation 
Fund over 10 years. The targeting of these funds could require 
redirecting funds from other high-priority programs or projects, which 
could reduce the efficacy of those programs. Many of the purposes of 
this bill can be accomplished through grants to states under the Land 
and Water Conservation Fund Act. We would like to work with 
Representative Frelinghuysen and other sponsors of the bill to examine 
more appropriate and cost-effective sources of funding.
    This concludes my testimony. I would be pleased to answer any 
questions the Committee may have on this bill.
                                 ______
                                 
    Mr. Radanovich. I now recognize Mrs. Christensen.
    Mrs. Christensen. Just for clarification, following along 
the lines of the question that was partially answered by 
Congressman Saxton, what is the difference between the 
Highlands Stewardship Area and a National Heritage Area?
    Mr. Jones. A National Heritage Area has a direct 
relationship with the National Park system and the National 
Park Service. A Stewardship Area is not a unit of the National 
Park system, and we would hope would not be the National Park 
Service.
    Mrs. Christensen. And would this sort of a Highlands 
Stewardship Area fit under the President's Heritage America 
Program?
    Mr. Jones. I really would have to defer those questions 
specifically to the Forest Service to answer because I do not 
have any background or experience in the concept of what is 
proposed in this bill.
    Mr. Radanovich. Just to clarify that last remark, though, 
the Heritage Area is usually administered out of the Park 
Service. Did you mean to say, then, that a Stewardship Area is 
generally administered out of the USDA, the Department of 
Forestry?
    Mr. Jones. Well, the Heritage Areas are not administered by 
the National Park Service, but we are the lead Federal agency 
that work with private partners.
    Mr. Radanovich. Right.
    Mr. Jones. Be they State, local governments or private 
organizations.
    Mr. Radanovich. Does that mean that, typically, then--what 
is this called?--a Stewardship Area, then, is the Department of 
Forestry then the lead agency on that?
    Mr. Jones. That would be how we see it, yes, sir.
    Mr. Radanovich. Good.
    Mr. Frelinghuysen, any questions?
    Mr. Frelinghuysen. Actually, your boss is Gale Norton, 
Secretary Norton?
    Mr. Jones. That is correct, yes, sir.
    Mr. Frelinghuysen. And Secretary Norton and Secretary 
Veneman are both involved in coming up with the recommendations 
that the appropriations language requested.
    Mr. Jones. That is correct.
    Mr. Frelinghuysen. We are hoping, obviously, for a very 
positive, some positive recommendations, in terms of how the 
Federal Government can collaborate with other stewards of 
properties in this regard, including the good stewardship, 
obviously, that the National Park Service has shown in this 
region and around the Nation.
    Mr. Jones. Absolutely. I would agree with you, and there is 
definitely a continued role for the stateside Land and Water 
Conservation Fund in this area as well. We have had good 
projects in the area, and we fully expect we will have them in 
the future, in partnership with all of the local organizations 
and States.
    Mr. Radanovich. Thank you very much, Mr. Jones, for your 
valuable testimony. I appreciate it.
    With that, you are excused, and we call up Panel 3, the 
Honorable Margaret Nordstrom, a freeholder from Morris County 
Board of Freeholders in Long Valley, New Jersey, and Mr. 
Stephen Shaw, the immediate past president of the New Jersey 
Builders Association from Mountain Lake, New Jersey. Both are 
here to speak on H.R. 1964.
    Good afternoon and welcome to the Subcommittee.
    Ms. Nordstrom, would you like to begin your presentation? 
We will give you both 5 minutes, and then we will open it up 
for questions from the members up here.
    Thank you and welcome.

  STATEMENT OF MARGARET NORDSTROM, FREEHOLDER, MORRIS COUNTY 
         BOARD OF FREEHOLDERS, LONG VALLEY, NEW JERSEY

    Ms. Nordstrom. Mr. Chairman, Madam Ranking Member, my name 
is Margaret Nordstrom, and I am pleased to appear for you today 
on behalf of the Morris County Board of Chosen Freeholders and 
the diverse local interests we represent, including small 
businesses, community groups, private property owners and 
nearly 750,000 residents of the New Jersey Highlands, to share 
with you the overwhelming support in our local communities for 
the legislation you are considering today.
    We are grateful, Mr. Chairman, for your Committee's 
expeditious attention to this bill and to the urgent needs it 
will address in New Jersey and throughout the four-State 
Highlands Region.
    We also deeply appreciate the dedication of our 
congressional delegation, including Representatives 
Frelinghuysen and Garrett, and the efforts of the many 
committed House members from other States who recognize the 
intense pressures the Highlands face, and the appropriate 
Federal role and appropriate local control the Highlands 
Stewardship Act provides.
    The Highlands is truly a glorious part of the United 
States. It has scenic vistas, unmatched recreational 
opportunities, critical wildlife habitat and prime farmland. 
However, its major importance lies in the fact that the 
Highlands is the prime source of drinking water for 15 million 
people.
    Today, these water resources are profoundly threatened, 
mainly as a result of unprecedented growth. The population in 
the Highlands from 1990 to 2000 increased 11 percent. The USDA 
Forest Service found that over 5,000 acres of land are being 
developed a year in the New York-New Jersey Highlands alone.
    Aquifer recharge areas that contribute to groundwater 
renewal have been paved over and other important aquifers have 
been damaged irreparably by inappropriate development. During 
times of heavy rains, water that in the past would have been 
allowed to percolate back into the ground now becomes runoff, 
making the rivers swell and flooding downstream communities 
with storm water.
    In the 18 years I have lived in my town, Washington 
Township, I have seen intermittent streams and wells dry up and 
the level of groundwater drop markedly. As the number of people 
who are dependent on the Highlands as their source of drinking 
water is expected to continue to increase, it is vital that we 
take steps now to ensure that we have water in sufficient 
quality and quantity for the future.
    The USDA Forest Service Report identified about 77 percent 
of the highest-value water resources in the Highlands, 
approximately 294,000 acres, as being unprotected. About 
100,000 of these acres are immediately threatened by potential 
development. We, in the Highlands, have a longstanding 
commitment to protecting our watersheds to prevent the need for 
water treatment options that ultimately cost far more and 
deliver less community benefit.
    Preservation of water resources is an issue of primary 
importance and cuts across municipal, political, and economic 
lines. As a result, many partnerships are being forged between 
State, county and municipal governments to this end, but this, 
in itself, will not be sufficient to do what needs to be done. 
We need the Federal Government to partner with us.
    Each of the towns and counties in the Highlands has its own 
goals for providing for its citizenry. Some want to continue to 
grow more than others, to provide services for their people, 
but all want to grow intelligently by protecting vital 
resources as they move forward.
    This is the common understanding that has to drive public 
policy. Yes, we need housing and commercial development, but it 
has to be built within a framework that accommodates 
environmental realities.
    I understand full well that this Committee hears from many 
communities who face similar, if less pronounced, land-use 
issues and which urge you to respond by asserting Federal 
control in the form of new national park areas or other 
Federally managed units.
    Please be assured, Mr. Chairman, that the very last thing 
we are interested in is a Federally controlled and mandated 
solution to local planning and land management decisions. In 
fact, our support for the Highlands Stewardship Act stems 
precisely from the bill's respect for local decisionmaking and 
from its targeted Federal assistance to our efforts to protect 
the nationally significant resources in our own backyard.
    The Highlands Stewardship Act offers a helping hand, rather 
than a strong-arm intrusion, regarding these issues. The bill 
brings Federal agencies, in a defined and welcome role, into 
the full partnership that now exists among our State and local 
agencies and the broad array of involved private interests.
    This balanced approach will help us to maintain our 
community vitality and our open spaces. It will facilitate 
cost-effective alternatives to domestic water purification 
options that otherwise would place even greater strains on 
public budgets, and it will enhance our ability to shape the 
best-possible future for our area and our constituents.
    I have here with me resolutions in support of this bill 
from five counties, many municipalities, a local guy who is a 
real estate agent, a very active real estate agent, and an 
organization of which fully one-third of their members 
represent the business community.
    Mr. Radanovich. And I would ask unanimous consent that that 
be submitted for the record as well, there being no objection.
    [NOTE: The supporting resolutions have been retained in the 
Committee's official files.]
    Ms. Nordstrom. Thank you, Mr. Chairman.
    [The prepared statement of Ms. Nordstrom follows:]

             Statement of Margaret Nordstrom, Freeholder, 
                Morris County, New Jersey, on H.R. 1964

    Mr. Chairman, my name is Margaret Nordstrom, and I am pleased to 
appear before you today on behalf of the Morris County Board of Chosen 
Freeholders and the diverse local interests we represent including--
small businesses, community groups, private property owners, and nearly 
750,000 residents of the New Jersey Highlands--to share with you the 
overwhelming support in our local communities for the legislation you 
are considering today.
    We are grateful, Mr. Chairman, for your Committee's expeditious 
attention to this bill and to the urgent needs it will address in New 
Jersey and throughout the four-state Highlands region. We also deeply 
appreciate the dedication of our Congressional delegation (including 
Representatives Frelinghuysen and Garrett) and the efforts of the many 
committed House members from other states who recognize the intense 
pressures the Highlands face and the appropriate Federal role--and the 
appropriate local control--the Highlands Stewardship Act provides.
    The Highlands is truly a glorious part of the United States. It has 
scenic vistas, unmatched recreational opportunities, critical wildlife 
habitat, and prime farmland. However, its major importance lies in the 
fact that the Highlands is the prime source of drinking water for 15 
million people. Today, these water resources are profoundly threatened, 
mainly as a result of unprecedented growth. Population in the Highlands 
from 1990 to 2000 increased 11%. The USDA Forest Service found that 
over 5,000 acres of land are being developed a year in the NY-NJ 
Highlands alone.
    Aquifer recharge areas that contribute to groundwater renewal have 
been paved over and other important aquifers have been damaged 
irreparably by inappropriate development. During times of heavy rains, 
water that in the past would have been allowed to percolate back into 
the ground now becomes run-off, making the rivers swell, and flooding 
downstream communities with storm water. In the 18 years I have lived 
in my town, Washington Township, I have seen intermittent streams and 
wells dry up, and the level of ground water drop markedly. As the 
number of people who are dependent on the Highlands as the source of 
their drinking water is expected to continue to increase, it is vital 
that we take steps now to insure that we have water in sufficient 
quality and quantity for the future.
    The USDA Forest Service report identified about 77 per cent of the 
highest value water resource lands in the Highlands, approximately 
294,000 acres, as being unprotected. About 100,000 of these acres are 
immediately threatened by potential development. We in the Highlands 
have a long standing commitment to protecting our watersheds to prevent 
the need for water treatment options that ultimately cost far more and 
deliver less community benefit. Preservation of water resources is an 
issue of primary importance, and cuts across municipal, political, and 
economic lines. As a result, many partnerships are being forged between 
state, county and municipal governments to this end, but this in itself 
will not be sufficient to do what needs to be done. We need the Federal 
Government to partner with us.
    Each of the towns and counties in the Highlands has its own goals 
in providing for its citizenry. Some want to continue to grow more than 
others, to provide services for their people, but all want to grow 
intelligently by protecting vital resources as they move forward. This 
is the common understanding that has to drive public policy. Yes, we 
need housing and commercial development--but it has to be built within 
a framework that accommodates environmental realities.
    I understand full well that this Committee hears from many 
communities who face similar, if less pronounced land-use issues and 
which urge you to respond by asserting Federal control in the form of 
new national park areas or other Federally managed units.
    Please be assured, Mr. Chairman, that the very last thing we are 
interested in is a Federally controlled and mandated solution to local 
planning and land management decisions. In fact, our support for the 
Highlands Stewardship Act stems precisely from the bill's respect for 
local decision-making, and from its targeted Federal assistance to our 
efforts to protect the nationally significant resources in our own back 
yard.
    The Highlands Stewardship Act offers a helping hand, rather than a 
strong-arm intrusion, regarding these issues. The bill brings Federal 
agencies, in a defined and welcome role, into the full partnership that 
now exists among our state and local agencies and the broad array of 
involved private interests.
    This balanced approach will help us to maintain our community 
vitality and our open spaces. It will facilitate cost-effective 
alternatives to domestic water purification options that otherwise 
would place even greater strains on public budgets. And it will enhance 
our ability to shape the best possible future for our area and our 
constituents.
                                 ______
                                 
    Mr. Radanovich. Thank you, Ms. Nordstrom for your 
testimony. Right on 5 minutes. Good job.
    Mr. Shaw, welcome to the Subcommittee. If you would like to 
begin your testimony, that would be great.

  STATEMENT OF STEPHEN H. SHAW, IMMEDIATE PAST PRESIDENT, NEW 
     JERSEY BUILDERS ASSOCIATION, MOUNTAIN LAKE, NEW JERSEY

    Mr. Shaw. Yes, thank you, Chairman Radanovich, Ranking 
Member Christensen, and members of the National Parks, 
Recreation and Public Lands Subcommittee.
    My name is Stephen Shaw. I am a lifelong New Jersey 
resident, and I am a second-generation builder and developer 
who has been in the home building business in New Jersey for 
over 30 years. I am the immediate past president of the New 
Jersey Builders Association, and I serve as councilman in 
Mountain Lakes, New Jersey, where my wife and I raise our two 
children.
    I am pleased and honored to have the opportunity to appear 
before you today to share the views of the New Jersey Builders 
Association and the National Association of Home Builders 
concerning H.R. 1964, the Highlands Stewardship Act.
    While we appreciate the efforts of this Subcommittee and 
Representative Frelinghuysen to address growth issues in New 
Jersey, New Jersey, Pennsylvania and Connecticut, the members 
of the New Jersey Builders Association and the National 
Association of Home Builders are opposed to the Highlands 
Stewardship Act.
    In my home State of New Jersey, we are facing a severe 
housing shortage. In the 1990's, New Jersey's population grew, 
while housing starts declined during that same time period. 
Because of this imbalance between supply and demand for 
housing, one million low- and moderate-income families will not 
have the opportunity to own a safe, decent and affordable home 
in the State of New Jersey.
    Mr. Chairman, using H.R. 1964 to influence population 
growth and migration trends in the Highlands is unrealistic. 
The Highlands Stewardship Act will only exacerbate the housing 
shortage in New Jersey.
    The Highlands Region is home to over 1.4 million people 
and, as the study states, virtually in the backyard of the 
Nation's largest metropolitan area. The region looks like any 
other suburban setting in the U.S. It is beautiful. It has 
lakes, rivers, highways, corporate parks, housing and shopping. 
Yet, this seemingly average suburban setting has been the 
subject of two congressionally authorized, and funded, U.S. 
Forest Service studies; first, in 1992, and most recently in 
2002.
    Representatives of the New Jersey Builders Association were 
asked to participate on the Highlands Work Group for the 2002 
update. Unfortunately, our participation was limited to little 
more than reviewing and commenting on the update. As a result 
of our limited input, the 2002 update fails to recognize the 
critical importance of housing and the economic impacts in the 
region.
    The attempt by the 2002 update to quantify the influence of 
future development is flawed in a number of ways. The lack of 
specificity in the modeling and scientific data presented in 
the reports opens the reports to contradiction and debate. 
These omissions, coupled with other flaws within the study, do 
nothing to realistically portray future development patterns or 
the likelihood of environmental damage in the Highlands.
    Mr. Chairman, H.R. 1964, which draws its basis from the 
conclusions and recommendations of the 2002 update, will have 
an adverse affect on housing affordability and housing choice 
in the Highlands Region. Land preservation and the development 
restrictions in the Highlands can only serve to increase the 
cost of land--I think Mr. Tenny testified to that--and 
therefore increase the cost of a home.
    There is no need for the creation of a Federal Office of 
Highlands or a special annual appropriation for the region, as 
H.R. 1964 would do. There currently exists several Federal 
programs that can aid local Highlands communities in their 
efforts on land preservation.
    For example, the U.S. Forest Service's Forest Legacy 
Program, which offers States an opportunity to identify and 
protect environmentally important forests, includes the 
programmatic infrastructure and funding to serve the goals of 
protecting sensitive lands in the Highlands.
    Additionally, as you, Mr. Chairman, pointed out, H.R. 1964 
offers no definition of Stewardship Area and what Federal 
protection, management or obligation the designation may 
provide to the Highlands Region. Although the legislation 
attempts to preserve local zoning control and private property 
rights, the creation of a Highlands Stewardship Area will 
encourage preservationists and no-growth advocates to further 
limit land use in the name of ``national significance.''
    The study poses a question: What will the area look like 
for our children and grandchildren? And that is a question I 
want to know, too. And I submit they will be forced to live and 
look at the Highlands from afar, unless we balance preservation 
with planning for people.
    Thank you for this opportunity to share our views on this 
very important issue. I look forward to answering any questions 
you or your Subcommittee members may have.
    [The prepared statement of Mr. Shaw follows:]

  Statement of Stephen H. Shaw, on behalf of the New Jersey Builders 
Association and the National Association of Home Builders, on H.R. 1964

    Chairman Radanovich, Ranking Member Christensen and members of the 
National Parks, Recreation and Public Lands Subcommittee, I am pleased 
to appear before you today to share the views of the New Jersey 
Builders Association (NJBA) and the National Association of Home 
Builders (NAHB) concerning H.R. 1964, the Highlands Stewardship Act.
    My name is Stephen Shaw and I am a life long New Jersey resident 
and second-generation builder and developer who has been in the home 
building business for over thirty years. For the past thirteen years, I 
have been the President of Shaw Built, Inc., an award winning medium-
sized building company specializing in the construction of custom 
single-family homes in Morris, Hunterdon and Sussex Counties in New 
Jersey. I am the Immediate Past President of the NJBA and serve as a 
Councilman in Mountain Lakes, New Jersey.
    On behalf of the 2,000 members of the NJBA and the 211,000 members 
of the NAHB, I would like to express our opposition to H.R. 1964, the 
Highlands Stewardship Act, introduced by Representative Rodney 
Frelinghuysen (R-NJ). While we appreciate the efforts of this 
Subcommittee and Representative Frelinghuysen to address growth issues 
in New Jersey, New York, Pennsylvania and Connecticut, the NJBA and 
NAHB are opposed to the Highlands Stewardship Act.
    This country is faced with the inevitability of population growth 
and migration trends. For years, NJBA and NAHB have been working on how 
to grow ``smart.'' However, in order to provide solutions, we must 
confront an emerging issue that goes hand in hand with smart growth: 
population pressure. Projections based on U.S. Census data show that 
the U.S. population segment between 25 to 64, the population segment 
that accounts for the most household formation, will increase by about 
1.4 million per year over the next ten years. With the addition of 
approximately 800,000 immigrants per year, the number of U.S. 
households will increase about 1.3 million per year for the next ten 
years. To satisfy this nationwide demand, and demand for the 
replacement of lost housing stock, home builders will have to provide 
approximately 1.6 million new homes a year.
    In my home state of New Jersey, we are facing a severe housing 
shortage. According to New Jersey's State Plan, approximately one 
million households, which represent about 2.5 million people, live in 
sub-standard, over-crowded housing for which they pay too much. The 
average new home in New Jersey costs $308,000; and the average existing 
home costs $224,000. To put it in context: the state's median household 
income is about $52,000 per year. A family at the median income level, 
assuming a generous down-payment and reasonable property taxes, can 
afford a house that costs perhaps $150,000--well below the average 
resale and average new home price in New Jersey. Over the decade of the 
1990's, New Jersey's population grew 87% more than in the 1980s; but 
our housing starts declined by 36%. The imbalance between the demand 
for and supply of housing is denying one million middle and modest 
income families to one of life's basic necessities: a safe, decent and 
affordable home.
    Mr. Chairman, the option to halt future growth, as a means of 
controlling present frustrations, is unrealistic. Future growth in the 
Highlands region is not an exception to this reality. The Highlands 
Stewardship Act will only exacerbate the housing shortage in New Jersey 
by slowing or even halting the opportunity to provide affordable 
housing in the Highlands region of the state and throughout the entire 
Highlands region.
    The Highlands is a geographic region that encompasses over two 
million acres stretching from western Connecticut across the Lower 
Hudson River Valley and northern New Jersey into east-central 
Pennsylvania. This area is home to over 1.4 million people and abuts 
one of the most populous metropolitan regions of the nation. The region 
is home to interstate highways, airports, a variety of single family 
and multi family housing, industrial complexes and corporate parks. The 
region also includes brownfield sites, gas stations, and shopping 
complexes, as well as, mountains, farmland, lakes and streams. The 
communities within the Highlands are vibrant and dynamic and, like most 
communities, will continue to grow to accommodate the needs and desires 
of people who choose to live, work and raise their families in the 
Highlands region.
    The Highlands has been the subject of two congressionally 
authorized and funded U.S. Forest Service studies: first, in 1992 and, 
most recently, the New York-New Jersey Highlands Regional Study 2002 
Update (the 2002 Update). In both instances, the reports accompanying 
these studies attempt to both qualify and quantify the natural 
resources of the Highlands and the threats posed to the region's 
natural resources by ``a growing population, urban decline, and 
suburban sprawl.''
    Representatives of NJBA were asked to participate by the U.S. 
Forest Service on the Highlands Work Group and ensure a regional 
perspective for the study. Unfortunately, our representatives were just 
a few of the over one hundred members of the Work Group. While our 
members had hoped to provide the U.S. Forest Service study team with 
specific input on the scope and subjects of the study, our 
participation was limited to little more than reviewing and commenting 
on the 2002 Update. As a result, we believe that the 2002 Update fails 
to recognize the critical importance of housing needs and economic 
impacts in the region. Further, the 2002 Update makes extremely general 
statements and negative predictions describing the condition of the 
natural resources within the area. The lack of specificity in the 
modeling and scientific data presented in the reports opens the reports 
to contradiction and debate. Because these studies comprise the basis 
for the legislative action we are contemplating today, it is important 
to comment on the shortcomings of these reports, specifically the 2002 
Update.
    The 2002 Update presents a broad scale assessment of the water 
quantity and quality, forest, habitat, recreation, and farmland 
resources of the New York and New Jersey portions of the Highlands 
region. The 2002 Update concludes that the Highlands' resources are 
being placed in jeopardy by development pressures. In order to draw the 
conclusion that the area's natural resources are threatened by 
residential expansion, the 2002 Update uses general modeling methods to 
make predictions about what will occur in the future. These modeling 
methods are replete with assumptions and generalities.
    For example, in an effort to quantify the effect future development 
will have on the region, the 2002 Update establishes a low-constraint 
and high-constraint build out analysis. The low-constraint build out 
analysis, which assumes that existing policies and conditions will be 
continued indefinitely, showed that build out would be reached in 2021 
with a 47.6 % population increase. The high-constraint build out 
analysis, which increases development constraints by removing areas 
that can be developed and changes some policies, showed that build out 
would be reached in 2035 with a 26.3% population increase.
    This attempt to quantify the influence of future development is 
flawed in a number of ways. First, build out may never occur. Both 
models assume that all available developable land will be utilized. 
Further, the two scenarios alter the pace of build out by using 
different and widely general assumptions, leading to the conclusion 
that increased development will occur. Second, the scenarios completely 
generalized local zoning regulations and ignored any opportunity for 
zoning changes. Third, both scenarios removed areas that were already 
built to maximum zoning density and areas that were zoned for 
commercial and industrial use. To omit these areas from consideration 
completely disregards the possibility, and reality, of community 
revitalization and infill development, such as brownfields 
redevelopment.
    The report employs additional modeling methodology with similar 
levels of assumptions and generalities to describe the future 
conditions of the area's water resources, forest resources, and 
watersheds. As above, it is through application of a generalized 
principle and coarse scale that the report provides the inevitable 
conclusion that these resources are imperiled.
    Additionally, the 2002 Update fails to assess the strain that 
development constraints will have on the local economies of the 
Highlands communities. If actualized, the restrictive modeling of the 
high-constraint scenario would deny the opportunity for 300,000 
residents (as compared to the predicted population of the Highlands 
using the low-constraint scenario) to live in the Highlands region. 
Further, the model fails to consider the economic benefit those new 
residents would provide to the region. The 2002 Update is noticeably 
silent on this issue, failing to adequately address any consideration 
of economic impacts, either in the modeling employed or in the 
potential impacts of the conservation measures sought in the report, 
might have on the region.
    Coupled with the conclusions and recommendations of the 2002 
Update, H.R. 1964 will have an adverse affect on housing affordability 
and housing choice in the Highlands region. As stated earlier, the 
Highlands is adjacent to one of the most populous metropolitan regions 
of the country and presents a desirable location in which to live, 
work, raise a family and recreate. Land preservation and development 
restrictions in the Highlands can only serve to increase the cost of 
land and, therefore, the cost of a home, and prohibit people from 
living in a home of their choice, in a setting of their choice and at a 
price they can afford.
    In an effort to address the short-term pressures of growth within 
the Highlands, the Highlands Stewardship Act provides Federal grants to 
the four Highlands states of New Jersey, New York, Pennsylvania and 
Connecticut for land acquisition. However, H.R. 1964 creates an 
unneeded and unwarranted level of bureaucracy. The legislation creates 
a Federal Office of Highlands Stewardship within the U.S. Department of 
Agriculture with the authority to approve and dispense land 
preservation grants for the Highlands region. Further, the Office of 
Highlands Stewardship is tasked with implementing the findings and 
strategies of the 1992 study and the 2002 Update, which, as stated 
earlier, has many flaws. The legislation authorizes an annual 
authorization of $25 million for land acquisition within the Highlands.
    There currently exist several Federal programs that can aid local 
Highlands communities in their efforts on land preservation without the 
creation of a new Federal office. For example, the U.S. Forest 
Service's Forest Legacy Program offers states an opportunity to partner 
with the U.S. Forest Service to identify and help protect 
environmentally important forests. The U.S. Forest Services' Land and 
Water Conservation Fund, which this legislation uses to fund Highlands 
preservation, provides money to Federal, state and local governments to 
purchase land, water and wetlands. The Natural Resources Conservation 
Service's Farmland Protection Program provides funds to help purchase 
development rights to keep productive farmland in agricultural uses. 
These Federal programs, and others, include the programmatic 
infrastructure and funding to serve the goals of protecting land in the 
Highlands without the creation of a new office to administer the 
program.
    Although H.R. 1964 attempts to preserve local zoning control and 
private property rights, the designation of the Highlands as a national 
Stewardship Area will serve to grant the Federal imprimatur to the 
Highlands region. With this designation, preservationists and no-growth 
advocates in the region will be emboldened to seek further limits on 
land use in the name of ``national significance.'' Further, the 
legislation offers no definition of ``Stewardship Area'' and what 
Federal protection, management or obligation the designation may 
provide to the area and the citizens who live within the region.
    One solution to easing development pressures and threats to natural 
resources in the Highlands is to examine the Federal statutory and 
regulatory impediments to sensible development and resource protection. 
Our industry has struggled over the years with myriad overlapping 
regulations that inhibit responsible development. Rather than create 
another layer of Federal oversight for this region, the Congress should 
explore ways that the Federal Government can coordinate its own various 
land use authorities and its own often contradicting policies that 
affect the Highlands region. The local communities within the Highlands 
that desire land preservation would be better served by the 
streamlining or improved cross-department coordination of the Federal 
requirements and processes that influence local land use plans. With 
better Federal regulatory coordination, state and local governments 
could better accommodate both development and preservation.
    The redevelopment of petroleum-contaminated brownfield sites is one 
area that the Federal Government can aid local communities. 
Unfortunately, current Federal law does not provide liability 
protection for innocent developers who want to develop petroleum 
brownfield sites. Without liability protection, builders are unwilling 
to assume the risk to their businesses and, therefore, are deterred 
from redeveloping petroleum sites. Petroleum brownfield sites, which 
present excellent redevelopment opportunities, represent approximately 
half of the 500,000 brownfield sites in the country. By providing 
statutory or regulatory incentives for redevelopment, brownfields 
revitalization can ease the development of ``green fields'' and aid 
land preservation efforts.
    Mr. Chairman, the Highlands Stewardship Act seeks to preserve land 
in the Highlands by using solutions drawn from debatable conclusions in 
flawed reports. Without exploring the economic impact that land 
preservation will have on local Highlands' economies and housing 
affordability, the solutions and strategies H.R. 1964 seeks to 
implement are incomplete and could damage the economic future of the 
region. While the cause of land preservation is a noble one, the goal 
of land preservation within the Highlands can be accomplished by 
existing Federal conservation programs without any special ``national'' 
designations.
    Mr. Chairman, thank you for this opportunity to share the views of 
the New Jersey Builders Association and the National Association of 
Home Builders on this important issue. I look forward to any questions 
you or the members of the committee may have.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Shaw.
    Mr. Shaw, do you think that the Highlands should be 
developed, then; is that what you are----
    Mr. Shaw. I think we have--I don't think--I know we have, 
and according to our State plan today, as we sit here, one-
third of New Jersey residents live in substandard, overcrowding 
housing for which they put too much. It is a balancing act.
    The recommendation calls for more recreation space for the 
citizens of New Jersey. I submit that we need to be equally 
concerned or more so that these residents have a safe, 
affordable roof over their head before we worry about where 
they are going to go during the day for recreation.
    The Highlands needs to be developed responsibly. I live 
there. Obviously, I have children and a family I am raising 
there, but the notion that housing, and the people that inhabit 
housing, are going to be detrimental to the environment is 
simply not true. Development can be done responsibly and 
protect the environment. But we need to provide housing, and we 
need to have a plan for people, instead of planning against 
people.
    Mr. Radanovich. Thank you very much.
    Mrs. Christensen?
    Mrs. Christensen. I have no questions.
    Mr. Radanovich. No questions, no?
    Mr. Frelinghuysen?
    Mr. Frelinghuysen. Just one brief comment.
    Thank you, again, Mr. Chairman, for the courtesies you have 
extended to me, Mr. Saxton, and the witnesses here today, and I 
particularly want to welcome Freeholder Margaret Nordstrom and 
Steve Shaw, who is an old friend, both of whom are 
constituents, particularly Margaret Nordstrom, who is a county-
elected official. Mr. Shaw is a municipal-elected official. 
Both of them are dedicated to the betterment of their 
communities and to Morris County, the county in which I live.
    And I know that I will continue to work with both of them, 
particularly Margaret Nordstrom, in terms of preserving open 
space, and toward the goals of this Highlands Stewardship Act. 
And I look forward to working with the New Jersey Home 
Builders, and Mr. Shaw and his group to make any improvements 
that are within reason, but help us achieve this very important 
goal.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Frelinghuysen.
    I have one question, too, and, Rod, it may be more 
appropriate for you to answer, but were there issues, and I 
mean this land is primarily in New Jersey and New York, but in 
Pennsylvania and Connecticut, were there ever any ballot or 
statewide ballot initiatives or bills at the State level to try 
to accomplish open space preservation within these same areas?
    Mr. Frelinghuysen. Well, I can speak for New Jersey. We 
have had a number, we have something called the Green Acres 
Program. I am not sure whether you have the equivalent in 
California. But the voters of New Jersey stand up on a fairly 
regular basis, and with their feet and with their pocketbooks, 
have voted, in many cases, to tax themselves so that they can 
raise money that can be matched by municipal, county, State and 
sometimes Federal resources; the ones that have been mentioned 
previously.
    So the State of New Jersey has had a long history of 
supporting public ballot initiatives to preserve open space, 
both in Republican and Democratic legislatures, as well as 
Republican and Democratic Governors.
    Mr. Radanovich. Any initiatives to make this more of a 
State park system or anything like that?
    Mr. Frelinghuysen. Well, what we don't want to do with this 
bill, as I have discussed with you on the way to floor votes, 
is give the Federal Government any more responsibilities to 
match----
    Mr. Radanovich. No, I am just thinking State parks, though, 
in a State park scenario.
    Mr. Frelinghuysen. Well, the State has lots of initiatives 
to buy more open space itself. The State is not relaxing, nor 
are the counties and municipalities, in terms of trying to 
preserve open space. They are willing to tax themselves, add on 
to their own tax rates, a certain percentage to buy open space. 
So I think there is a wide support for what we are doing 
because many municipalities and counties already have the State 
mechanism.
    We hope that that self-taxing mechanism can be used in 
conjunction with Federal dollars to expand the ability to buy 
more property from willing sellers.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Ladies and gentlemen, thanks for your fine 
testimony. I appreciate your being here and, with that, the 
hearing is closed.
    [Whereupon, at 3:48 p.m., the Subcommittee was adjourned.]


</pre></body></html>
